<html>
<title> - WILL THE HONG KONG MODEL SURVIVE?: AN ASSESSMENT 20 YEARS AFTER THE HANDOVER</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
  WILL THE HONG KONG MODEL SURVIVE?: AN ASSESSMENT 20 YEARS AFTER THE 
                                HANDOVER

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2017

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 
 


         Available via the World Wide Web: http://www.cecc.gov
         
         
         
         
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-340 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001             
         
         


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

MARCO RUBIO, Florida, Chairman       CHRIS SMITH, New Jersey, 
TOM COTTON, Arkansas                 Cochairman
STEVE DAINES, Montana                ROBERT PITTENGER, North Carolina
JAMES LANKFORD, Oklahoma             TRENT FRANKS, Arizona
TODD YOUNG, Indiana                  RANDY HULTGREN, Illinois
DIANNE FEINSTEIN, California         MARCY KAPTUR, Ohio
JEFF MERKLEY, Oregon                 TIM WALZ, Minnesota
GARY PETERS, Michigan                TED LIEU, California
ANGUS KING, Maine

                     EXECUTIVE BRANCH COMMISSIONERS

                           Not yet appointed

                    Elyse B. Anderson, Staff Director

                  Paul B. Protic, Deputy Staff Director

                                  (ii)
                                  
                                  
                                  
                                  
                             CO N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
  Chairman, Congressional-Executive Commission on China..........     1
Smith, Hon. Christopher, a U.S. Representative From New Jersey; 
  Chairman, Congressional-Executive Commission on China..........     3
Patten, Rt. Hon. Lord Christopher of Barnes CH, 28th Governor of 
  Hong Kong, 1992-1997; Chancellor, University of Oxford 
  (Appearing live via video teleconference)......................     5
Wong, Joshua, Umbrella Movement Leader and Secretary-General 
  Demosisto......................................................    16
Lee, Martin, Barrister, Founding Chairman, the Democratic Party 
  of Hong Kong; Former Member of the Drafting Committee for the 
  Basic Law; and Former Member of the Legislative Council of Hong 
  Kong (1985-2008)...............................................    21
Lam Wing Kee, Founder, Causeway Bay Books; One of five victims of 
  the forced disappearances of Hong Kong booksellers.............    22
Bork, Ellen, author..............................................    25

                                APPENDIX
                          Prepared Statements

Wong, Joshua.....................................................    38
Lee, Martin......................................................    40
Lam Wing Kee.....................................................    41
Bork, Ellen......................................................    47

Rubio, Hon. Marco, a U.S. Senator From Florida; Chairman, 
  Congressional-Executive Commission on China....................    48
Smith, Hon. Christopher, a U.S. Representative From New Jersey; 
  Cochairman, Congressional-Executive Commission on China........    49

                       Submission for the Record

Witness Biographies..............................................    51


                  WILL THE HONG KONG MODEL SURVIVE?: 
               AN ASSESSMENT 20 YEARS AFTER THE HANDOVER

                              ----------                              


                         WEDNESDAY, MAY 3, 2017

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 9:34 a.m., 
in Room 138, Dirksen Senate Office Building, Hon. Marco Rubio, 
Chairman, presiding.
    Also present: Cochairman Christopher Smith; Senators Steve 
Daines, Angus King, and Tom Cotton.

  OPENING STATEMENT OF HON. MARCO RUBIO, A U.S. SENATOR FROM 
 FLORIDA; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Chairman Rubio. All right, good morning. Good morning. This 
is a hearing of the Congressional-Executive Commission on 
China. The title of the hearing is ``Will the Hong Kong Model 
Survive?: An Assessment 20 Years After the Handover.''
    We are going to have two panels testifying today. The first 
panel will feature the Right Honorable Lord Patten of Barnes, 
Christopher Patten, testifying via video link from London.
    Lord Patten, in addition to serving in the House of Lords, 
was the last British governor of Hong Kong and oversaw the 
transfer to China 20 years ago this July.
    The second panel will include Joshua Wong from the Umbrella 
Movement, its leader, now the secretary-general of the new Hong 
Kong political party Demosisto.
    Demosisto? Did I pronounce that? Great.
    Martin Lee, barrister, founding chairman of the Democratic 
Party of Hong Kong, former member of the Drafting Committee for 
the Basic Law and former member of the Legislative Council of 
Hong Kong from 1985 through 2008.
    Lam Wing Kee, founder, Causeway Bay Books, one of the five 
forcibly disappeared Hong Kong booksellers.
    And Ellen Bork, a writer whose work on democracy and human 
rights as a priority in American foreign policy, has appeared 
in the Wall Street Journal, the Washington Post, and the 
Financial Times, among other publications.
    I would also note that translating for Mr. Lam is Ms. Mak 
Yin-ting, a journalist and veteran of the Hong Kong Journalists 
Association, the territory's leading defender of press freedom.
    As has already been noted, today's hearing is timely, given 
the 20th anniversary this July of the British handover of Hong 
Kong. As we rewatch film footage and commentary of that 
historic day, we cannot help but take note of the pageantry, 
the raising and lowering of flags, the solemn handshakes, the 
national anthems.
    Many observers describe the handover as signifying the 
sunset of a once-great colonial power and the ascent of a 
rising China. But there was and remains far more at stake.
    On that day in 1997, Lord Patten, who we will hear from 
momentarily, spoke of Hong Kong's unshakable destiny, a Hong 
Kong governed by and for the people of Hong Kong. And it is 
that destiny that animates today's gathering.
    However, in recent years, Beijing has consistently 
undermined the ``one country, two systems'' principle and has 
infringed on the democratic freedoms that the residents of Hong 
Kong are supposed to be guaranteed under the Sino-British Joint 
Declaration, which is an international treaty, and Hong Kong's 
Basic Law.
    The rise of localist politicians and activists who call for 
greater political and legal self-determination for Hong Kong 
has drawn harsh reprisals from the Chinese and Hong Kong 
Governments.
    The Chinese Government's November 2016 interpretation of 
Hong Kong's Basic Law effectively prohibited two recently 
elected Hong Kong legislators from taking office and was viewed 
as a blow to Hong Kong's judicial independence.
    The Hong Kong Government is currently seeking the removal 
from office of four other pro-democratic legislators all along 
the same lines.
    In March of this year, nine activists were arrested for 
their participation in the Occupy Central protests in 2014, 
including two sitting pro-democratic lawmakers. Their arrests 
came less than 24 hours after the undemocratic ``election'' of 
Carrie Lam to serve as Hong Kong's next chief executive, which 
drew widespread condemnation and accusations of a retaliatory 
campaign aimed at punishing leaders of the Hong Kong democracy 
movement and suppressing dissent prior to her taking office.
    In late 2015, five Hong Kong-based booksellers, including 
one of today's witnesses, were disappeared or abducted to 
mainland China. One of these booksellers, Gui Minhai, a Swedish 
citizen abducted from Thailand, remains in custody in China 
where he will mark his 53rd birthday this coming Friday.
    The disappearances and abductions of the booksellers and 
their coerced, ``confessions'' which were broadcast on Hong 
Kong television, sent shockwaves through the city and are 
reflective of a larger, troubling trend in the area of press 
freedom and freedom of expression.
    Today happens to be World Press Freedom Day and it bears 
mentioning that the recently released Reporters Without Borders 
index ranking, which ranks countries for their press freedom 
environment, had Hong Kong slipping four places in a single 
year.
    In February, Senators Cardin and Cotton joined me in 
introducing the bipartisan Hong Kong Human Rights and Democracy 
Act, which would renew the United States' historical commitment 
to Hong Kong at a time when its autonomy is increasingly under 
assault.
    The legislation also establishes punitive measures against 
government officials in Hong Kong or mainland China who are 
responsible for suppressing basic freedoms.
    Looking ahead, Congress will be closely watching how Hong 
Kong authorities and the mainland handle the 20th anniversary 
as well as whether Ms. Lam moves to reintroduce Article 23, 
widely despised anti-subversion and anti-sedition legislation 
first proposed in 2002, which triggered massive protests in 
which half-a-million Hong Kongers took to the streets.
    And for all these reasons is why we look forward to today's 
hearing, because without question there are many layers and 
complexities to our relationship with China as evidenced by the 
questions during yesterday's hearing for Governor Branstad to 
serve as U.S. Ambassador to China.
    Despite the multitude of challenges, Hong Kong's future, 
indeed its destiny, must not be sidelined. China's assault on 
democratic institutions and human rights is of central 
importance to the people of Hong Kong and to its status as a 
free market, economic powerhouse and hub for international 
trade and investment.
    We cannot allow Hong Kong to go the way of Beijing's failed 
authoritarianism and one-party rule.
    At this time, I would turn to Congressman Smith. And I 
would note that the congressman has another important bill up 
for markup. At some point, he will have to leave early, but we, 
as always, are appreciative of his incredible leadership on 
this commission and on this cause.
    [The prepared statement of Senator Rubio appears in the 
appendix.]

STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. REPRESENTATIVE FROM 
 NEW JERSEY; COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Representative Smith. Thank you very much, Mr. Chairman. 
And I want to thank you for convening this extremely important 
and timely hearing.
    Two-and-a-half years ago, tens of thousands of Hong Kong 
residents peacefully gathered in the streets, yellow umbrellas 
in hand, seeking electoral reform and greater democracy.
    Joshua Wong was at the forefront of that movement along 
with Nathan Law and Alex Chow and so many other young student 
leaders.
    The Umbrella Movement was not only composed of students, 
but included veterans of the democracy movement in Hong Kong, 
including the incomparable Martin Lee.
    It is good to see Joshua and Martin here today, bringing 
together the generations of advocates committed to Hong Kong's 
freedom and autonomy.
    Joshua Wong and all those associated with the Umbrella 
Movement have become important symbols of Hong Kong's vitality 
and its freedoms. They are now part of Hong Kong's unique 
brand. And any effort to detain, censor, or intimidate them 
dangers that brand.
    Over the past two years, Senator Rubio and I along with 
other members of the China Commission have introduced the Hong 
Kong Human Rights and Democracy Act. And we have worked in 
Congress to maintain the State Department's annual report on 
Hong Kong.
    We have issued strong statements of solidarity with and 
concern for the political prosecutions of Joshua and other 
Umbrella Movement leaders, the unprecedented interventions by 
the Chinese Government in Hong Kong's courts and political 
affairs, and the abductions of Hong Kong booksellers and other 
citizens.
    We have also discussed the erosion of Hong Kong's autonomy 
and freedoms with both U.S. and Chinese officials.
    I especially want to commend Senator Rubio for his 
leadership on human rights issues and on Hong Kong. We have 
worked together closely and I am honored to work with him on 
this commission. Senator Rubio is a true champion of the 
globe's oppressed and persecuted.
    As long as I have the privilege of serving as chair of the 
China Commission, the House chair, I promise to continue 
shining a light on Hong Kong.
    Maintaining Hong Kong's autonomy is a critical U.S. 
interest. The United States also has a clear interest in 
Beijing abiding by its international agreements in Hong Kong 
and elsewhere.
    The democratic aspirations of the people of Hong Kong 
cannot be indefinitely suppressed. My colleagues and I promise 
to stand with Hong Kong and call attention to violations of 
basic human rights as they have occurred and, sadly, are still 
occurring.
    Through Beijing's increasingly rough oversight of Hong 
Kong, though it may not be as brutal as that pursued on the 
mainland, it is no less pernicious. The ultimate goal is 
eroding Hong Kong's guaranteed freedoms and the rule of law and 
intimidating those who try to defend them.
    This year will be the 20th anniversary of the handover of 
Hong Kong. And I think it is very important that Lord 
Christopher Patten will be testifying. He has provided insights 
to this commission before, always timely and always very, very 
incisive.
    Unfortunately, it seems the territory's autonomy now looks 
increasingly fragile. Again, all the more reason why we need to 
hear from him.
    We are coming up on another anniversary as well, the 25th 
anniversary of the Hong Kong Policy Act. At this juncture, we 
should be examining both the health of the ``one country, two 
systems'' model and examining the very assumptions that 
underline U.S.-Hong Kong relations, what can be done 
differently, what new priorities should be set.
    The Hong Kong Policy Act of 1992 is based on the assumption 
that freedom, the rule of law, and autonomy promised to Hong 
Kong would be protected and respected. It was also based on the 
assumption that time was on the side of freedom, that trade and 
investment would eventually bring political liberalization and 
human rights to mainland China.
    As Chairman Rubio and I have been saying for some time, one 
can no longer base U.S. policy on the fantasy that China's 
future will be more democratic and more open.
    Mainland China has become more repressive under Xi Jinping, 
not less. Prosperity has turned a poor authoritarian country 
into a rich authoritarian country with predictable results for 
China's rights defenders, ethnic and religious groups, labor 
and democracy advocates, foreign businesses, and Hong Kong's 
autonomy.
    Some will argue that the best course of action would be to 
retreat into a hard realism, recognizing China's interests and 
spheres of influence to protect U.S. interests.
    We could ignore what is happening in Hong Kong and shift 
responsibility, say, to the British or some undefined 
international body. I strongly disagree.
    We do not need a new realism to govern our China policy. 
Instead, we need a new idealism, a renewed commitment to 
democratic ideals, to human rights and the rule of law in ways 
that compete directly with the Chinese model in Asia, Africa, 
and elsewhere.
    Chinese leaders need to know that the United States stands 
for freedom of expression, religion, Internet freedom, the rule 
of law, universal suffrage, an end to torture, and other 
fundamental human rights.
    Again, I want to thank you and would ask unanimous consent 
that my full statement be made a part of the record.
    And I do regret we have a markup at 10 o'clock on the House 
side. The first bill that is up is my bill on combating human 
trafficking, so I have to be there to defend it.
    So thank you, Mr. Chairman.
    [The prepared statement of Representative Smith appears in 
the appendix.]
    Chairman Rubio. Thank you. Thank you, Congressman. Thank 
you for your leadership.
    And we will proceed here quickly via our videoconference 
with Lord Patten.
    We thank you for joining us today. We look forward to your 
testimony and our questions. And I am hoping that you can hear 
us clearly.
    Lord Patten. I can indeed.
    Chairman Rubio. Well, thank you for joining us today. You 
are recognized, sir.

    STATEMENT OF THE RIGHT HONORABLE LORD PATTEN OF BARNES, 
   CHRISTOPHER PATTEN, 28TH GOVERNOR OF HONG KONG, 1992-1997 
           (APPEARING LIVE VIA VIDEO TELECONFERENCE)

    Lord Patten. First of all, I would like to thank you very 
much indeed for giving me the opportunity of speaking to you 
again. I spoke to you last in 2014 in November. And we spoke 
then principally about the extraordinarily moving 
demonstrations that were taking place in Hong Kong.
    Since then, as you have said, we have had two lots of 
elections which give a peculiarly Chinese meaning to the word 
``election'' and are not quite the democratic events that you, 
Senator, and I are used to.
    I will not go through all that again. I explored those 
issues at some length in 2014 in relation to the Joint 
Declaration, the Basic Law, and the International Covenant on 
Civil and Political Rights. And all that is on the record.
    I can go back over it again if you would like, but it is 
perfectly clear that Hong Kong has not been given what it was 
promised by the new sovereign power.
    Perhaps I can just, by way of introduction, make four or 
five points.
    The first is one I made before, namely that Beijing, the 
Chinese Communists consistently argue that what happens in Hong 
Kong is nobody else's affair and that others should avoid 
interfering. Well, that is not true on two levels and indeed on 
a third.
    On the first level, Hong Kong's autonomy and way of life 
for 50 years, guaranteed under the Joint Declaration, which is 
an international treaty between Britain and China in which 
first Britain undertook that it would deliver some things to 
the people of Hong Kong and report on that to China.
    And today, the situation is reversed. China is supposed to 
keep its word to the people of Hong Kong and Britain has every 
right to interfere in that and argue about whether that has 
actually happened.
    Now, whether or not China keeps its word on the Joint 
Declaration over time is plainly a matter of considerable 
interest, which is the second reason why we have to be 
concerned, to the rest of the international community. Because 
if China breaks its word over the Joint Declaration and, by 
extension, the International Covenant and the Basic Law, if 
China breaks its word on those things, where do we trust it on 
other international agreements?
    And the third point is a straightforward one about Hong 
Kong's development. Hong Kong is a huge important international 
trading and economic hub. And an example of that is that there 
are 1,200 American companies, or perhaps more now, based in 
Hong Kong. So it is in America's interest and the international 
community's interest that Hong Kong should be well-governed and 
should have a reasonable balance between economic and political 
freedom.
    The other points I would like to make very briefly are 
these, that most of the people I respect in Hong Kong have 
argued that there has plainly been an erosion of autonomy and 
of the rule of law over the last few years, direct attacks on 
autonomy with the abductions that you referred to, and most 
recently the abduction of a billionaire who was plainly a bag 
carrier for some of the wealthiest members of the Chinese 
leadership in Beijing.
    There has been pressure on the independence of the 
judiciary, which I suppose the most outrageous example of that 
was an intervention by the National People's Congress in a case 
which was already before the Hong Kong courts and was being 
properly dealt with.
    Third, there are real worries about pressure on the 
institutional and academic autonomy of universities. I think 
the view on the part of the Chinese Communist Party is that the 
democracy movement came out of students and came out of 
universities, particularly from law faculties, which has 
encouraged them, the Joint Liaison Office in Hong Kong and 
others, to interfere in university autonomy.
    And freedom of speech, as you said, continues to be a 
problem. We have not had anything as outrageous as the 
appalling machete attack on a very brave journalist, Kevin Lau, 
in the early part of 2014. But there is still the sense of 
financial and physical intimidation of the press.
    The other points I just wanted to make very briefly are, 
first of all, we have seen, partly because any dialogue with 
the democracy movement and with young people and with not-so-
young people in Hong Kong, any dialogue has been cut off. I 
think it is not unfair to say that Carrie Lam did not give the 
impression when she was talking to the students of being very 
interested in what they had to say.
    And I think as a consequence of that, we have seen what I 
believe to be an unwise development of what is called, 
politely, localism, the attempt to argue the case for Hong 
Kong's not just autonomy within China, but for Hong Kong's 
independence.
    And I think a lot of people who are totally supportive as I 
am of greater progress toward democracy, of standing up for the 
rule of law, are very, very doubtful about the wisdom of 
arguing for Hong Kong to have independence as a sovereign 
state. I simply think that that plays to the hardliners in 
Beijing. And I do not think it has been terribly wise.
    The last points I want to make are there. There is a lot of 
talk, not least on the part of political scientists, 
distinguished geopolitical experts like Graham Allison in the 
United States, about what they call the Thucydides Trap, about 
the almost inevitable way in which, or they say the inevitable 
way in which great powers are pushed into dealing aggressively 
with powers that are on the rise. And that obviously is a 
backdrop in some respects to the way we handle China in the 
next few years.
    But the way we handle China in the next few years will 
largely depend on the way that China handles us and the way 
that China handles its responsibilities. And I think that Hong 
Kong, to that extent, exemplifies some of the biggest issues 
that we will face in the century ahead, how China takes its 
part in the international community, how we balance economic 
and political freedom, how China copes with its regional 
relationships.
    Now, if China cannot even handle the reasonable democratic 
aspirations, as it promised to do of people in Hong Kong, it 
does not give one a huge amount of confidence in its ability to 
handle wider issues.
    We are told that President Xi Jinping may well be going to 
Hong Kong at the beginning of July to swear-in Carrie Lam and 
to celebrate the 20th anniversary of the handover of Hong Kong 
to China.
    I hope that if that is true he takes the opportunity to 
reassure people in Hong Kong that China still stands foursquare 
behind what it promised back in 1984 and 1985 and later and 
that he, like Deng Xiaoping, believes that people in Hong Kong 
are perfectly capable of running their own affairs. It was a 
very important remark that Deng Xiaoping made back in 1984 to 
set the minds and hearts of people in Hong Kong at rest.
    Well, I have to say, though I think that there is much good 
that is still happening in Hong Kong, people's minds and hearts 
are not exactly at rest at the moment.
    [The prepared statement of Lord Patten appears in the 
appendix.]
    Chairman Rubio. We thank you for your testimony.
    And I know that you are pressed on time. And we have a 
substantial time difference. So I will be brief unless any of 
the other members of the commission appear during your time on 
our video screen.
    And I think you have touched on this already. But how would 
you assess the British and Chinese Governments with regard to 
fulfilling their respective obligations under the Joint 
Declaration?
    As you looked 20 years into the future, is this what you 
thought it would look like? Is this what you had envisioned 
from both sides 20 years ago?
    Or if someone had told you this is the way it was going to 
look like 20 years later, how would you have felt 20 years ago?
    Lord Patten. I would have been pleased that the worst that 
some people anticipated did not happen. There are many, Milton 
Friedman was one, who thought that ``one country, two systems'' 
was impossible. There were others who thought that, for 
example, even I would be leaving in a helicopter from the 
ballroom roof in Government House and that sooner or later 
there would be violence in Hong Kong. And that has not 
happened, though there has occasionally been some pretty rough 
policing.
    When I was in Hong Kong, we would occasionally have a few 
hundred people demonstrating. It has been rather different from 
that.
    But there has been, I think, a steady and growing erosion 
as Anson Chan and as Martin Lee and others have said of Hong 
Kong's autonomy. And I think that is much to be regretted. And 
Hong Kong and China will be the losers from that.
    I do not want to exaggerate and I have never set myself up 
as a day-to-day commentator on everything that goes wrong in 
Hong Kong.
    The Taiwanese, of course, not least because ``one country, 
two systems'' was designed for them as well, keep a very beady 
eye on things and have suggested that there have been 169 
breaches of the Joint Declaration. Well, I would not say that 
myself.
    What I would say is that the British Government has not 
always been, and let me choose my words very carefully, has not 
always been very robust in drawing attention to breaches, 
whether large or small, of the undertakings, both the letter 
and the spirit, made by China. And I rather regret that.
    The House of Commons Select Committee on Foreign Affairs 
did produce itself quite a robust report in 2015 having been 
banned from going to Hong Kong by the Chinese authorities.
    I just hope that we will speak out, the British Government 
will speak out rather more loudly over the coming months and 
years. I have always felt that we, and I blame myself a bit, 
but I blame British Governments over a long period of time, I 
always felt that we let down the generation before Joshua Wong, 
his parents' generation. And I hope that we do not let down 
Joshua Wong's generation as well.
    Because the most exciting and important thing I think to 
have happened is there remains in Hong Kong a sense of 
citizenship in a free society, which is exemplified by the 
brave way in which Joshua and his colleagues have behaved.
    Chairman Rubio. I believe Senator Daines, who happened to 
have lived in Hong Kong at the time when you were governor, he 
says it was very well run. [Laughter.]
    But I wanted to give him an opportunity to speak to you 
across the Atlantic.
    Senator Daines. Governor Patten?
    Lord Patten. Hello.
    Senator Daines. How are you?
    Lord Patten. I am very well. I am now running a great 
university, Oxford University, where we have a lot of Chinese 
students and a lot of Hong Kong students. And that means that I 
now enjoy the cut and thrust of the politics of a university 
rather than the real thing. Universities are sometimes a bit 
rougher.
    Senator Daines. Well, it is an honor to engage with you 
today here, Governor Patten.
    Just by way of brief introduction, my wife and I moved our 
family to Guangzhou actually in January 1992. So I watched the 
transition, and was there as an expat working for Procter & 
Gamble at the time.
    Lord Patten. Wow.
    Senator Daines. And in fact, we used to travel back and 
forth to Hong Kong quite frequently. It was where two of my 
children were born pre-handover, while you were governor in 
fact, there at that Matilda Hospital there on top of Victoria 
Peak.
    Lord Patten. I know it well.
    Senator Daines. So does my wife. [Laughter.]
    But we had a very good experience there, truly.
    Lord Patten. See, despite some of the criticisms that I 
have been making, the five years I spent there as governor were 
the best five years of my life and the best five years of my 
family's life.
    Senator Daines. Well, I will say, I thought you managed the 
transition with great honor and dignity at a time there were a 
lot of people wondering what was going to happen after July 1, 
1997.
    I was there in Hong Kong on June 30, 1997, and watched the 
Union Jack come down for the last time. It was kind of a dreary 
day, like a London day perhaps, when that occurred. But I 
remember it well.
    Lord Patten. Certainly like today, it is raining today.
    Senator Daines. Not that it is always dreary in London, but 
you know what I mean.
    I just returned from Hong Kong. In fact, I led a 
congressional delegation visit to China. We were in Beijing. We 
were in Hong Kong and we were also in Tokyo. So we had a chance 
to interact with the LegCo there. We had a chance to have a 
good conversation with Chief Executive-designate Carrie Lam. 
And I think it was a constructive conversation.
    The change that I have seen, certainly since we moved there 
in 1992, we returned back to the states shortly after the 
handover, has been nothing less than profound as I look at Hong 
Kong as well as the rest of China.
    When we moved over there, the Chinese GDP was $500 billion. 
Today, it is somewhere north of $11 trillion. I believe Hong 
Kong's percentage of the overall China GDP in 1997 was around 
18 percent, I believe.
    Lord Patten. Yeah.
    Senator Daines. Does that sound about right? And I believe 
today it is around----
    Lord Patten. Seventeen, 18, yeah.
    Senator Daines [continuing]. Seventeen to 18 percent. And I 
think today it is around 3 percent, I believe.
    Lord Patten. Yes.
    Senator Daines. A function really of just a bigger 
denominator now. So we have seen the incredible transformation 
of the economy in China.
    My question to you as you have watched this for many, many 
years, as have I, is, what do you think will be the long-term 
competitive differentiator between Hong Kong and Shenzhen or 
Hong Kong and Guangzhou?
    Lord Patten. The rule of law, above all, which is at the 
heart of the sense of citizenship, which I think is the 
standout quality in Hong Kong, which differentiates it from 
Shanghai or Shenzhen or Guangzhou or the mainland cities. And I 
think it is an extraordinarily precious sense of Hong Kong-
Chinese identity, not just Chinese identity.
    What I have often been struck by is the extent to which 
Chinese officials parrot Deng Xiaoping's expression ``one 
country, two systems,'' but never actually think through what 
it means.
    Marxists, if such they are, though I think Leninist is a 
better description, should understand the relationship between 
economics and politics. And the system in Hong Kong is one in 
which people have an inherent understanding of the balance 
between economic and political freedom.
    So I do not believe that is going to be stamped out when 
young men and women like Joshua Wong still feel it as intensely 
as they do. I certainly do not think it is going to be stamped 
out. And it will remain a principal reason for Hong Kong's 
ability to perform successfully so well.
    Of course, it is helped by the fact that it is part of the 
Pearl River Delta economy. Of course, it is helped by the fact 
that it has both helped to trigger and enjoyed some of the 
benefits of the extraordinary period of growth in China.
    But nobody should underestimate what Hong Kong contributed 
to that. And I think it is of some relevance that so many 
Chinese businesses will still come to Hong Kong to arbitrate 
disputes between them because they can trust the system in Hong 
Kong, but cannot trust it in mainland China. So I think Hong 
Kong will continue to have an advantage.
    And I would add to that, for a community of its size, and 
this is something which Hong Kong should be very proud of, for 
a community of its size, say, 7 million, it is extraordinary 
that it has 2, maybe 3 of the 50 best universities in the 
world. It has more universities in the top 50 than Germany or 
France. That is an outstanding achievement.
    And we all know that while there are other reasons for the 
academy, that it is part of a free society, it also has 
economic spinoffs which we should not underestimate.
    Senator Daines. Thank you. And I want to make sure I 
promote you to your proper title as Lord Patten.
    Lord Patten. Only my wife calls me that. [Laughter.]
    Senator Daines. Well, it was just I still remember you so 
well as governor. But you recently stated, Lord Patten, that 
the actions of some Hong Kong democracy activists have actually 
diluted support for democracy.
    Could you elaborate on that? And what advice would you 
offer these activists?
    Lord Patten. The advice I would offer them, and I do it 
with a considerable sense of humility, because they are on the 
spot, they are taking the risks, they are being much braver 
than I have ever had to be, let us be clear about that, and the 
demonstrations in 2014 were an astonishing example to the rest 
of the world, to all the world, except mainland China where the 
news was blacked out, they were an extraordinary example of how 
direct action in promoting democracy can be conducted in a way 
which is, by and large, nonviolent, particularly unless local 
triad gangs were let loose on the demonstrators. They behaved, 
on the whole, with exemplary, peaceful intention.
    My worry is that the argument for democracy becomes 
confused if you start arguing for something which simply is not 
going to happen.
    I cannot think of a large country, of any country which 
would support Hong Kong becoming an independent, sovereign 
state. It is just not going to happen.
    And what does happen is that people in China are only fed 
stories about Hong Kong wanting to be independent of the rest 
of China. They do not know about the struggle for democracy 
within Hong Kong itself.
    I can understand why people feel so frustrated by the lack 
of democratic progress that they think they have got to go for 
something bigger. But I think it really does risk reducing 
support for what is a powerful, a very powerful cause in 
democracy.
    Now, when I was in Hong Kong last November, I made that 
point to a big meeting of students at Hong Kong University. And 
they were wonderfully polite; I do not think they agreed with 
me. I mean, Joshua will know what the figures were, but 
probably 6(00), 700 people present. And I do not think there 
was a single question which was supportive of the position I 
was trying to argue.
    But I really did think that I had some skin in this game. 
And I think that people were likely to listen to me because 
they knew I was so strongly in favor of the principal 
objective, which is Hong Kong people running Hong Kong.
    Senator Daines. Lord Patten, we had a conversation with 
Chief Executive-designate Carrie Lam when I was there a few 
weeks ago. There were four U.S. Senators and two Members of the 
House of Representatives that joined that discussion.
    One of Carrie Lam's most prominent opponents during the 
election process was former financial secretary John Tsang who 
was widely popular----
    Lord Patten. Yes.
    Senator Daines.--widely popular among the Hong Kong 
residents. Given his popularity, what is your sense about what 
his future prospects would be in Hong Kong politics? And how 
likely do you think Carrie Lam might consider him to be a part 
of her government?
    Lord Patten. Well, I think it is uncomfortable for me to 
make this point. But commendation from the former colonial 
oppressor may be the kiss of death for some Hong Kong 
officials. [Laughter.]
    I know John Tsang extremely well. He was my private 
secretary when I was governor. He then represented Hong Kong in 
London. He is an outstanding public servant and I think that 
was recognized by the people in Hong Kong who gave him a lead 
over Carrie Lam of, I think, something like 30 percent. I mean, 
he had a huge lead in the opinion polls.
    I guess he got the thumbs down from the ayatollahs because 
he counseled on the case for dialogue with the democracy 
activists whereas Carrie Lam did not seem to think that they 
needed to be talked to at all. So I think that probably, as far 
as Beijing was concerned, sank his chances.
    But Hong Kong, of course, has a huge amount of talent, not 
least in the public service. But the talent pool is not so 
overflowing that you could ignore people like John Tsang. And I 
hope he will continue to have an active role in the public life 
of Hong Kong.
    But I repeat: I am certainly not going to write him any 
references because that would sink his chances like a dose of 
the plague. [Laughter.]
    Senator Daines. Final question for you, Lord Patten. As you 
look at the relationship between the United States and Hong 
Kong, what opportunities do you see for greater economic and 
perhaps political engagement between the United States and Hong 
Kong?
    Lord Patten. Well, I want to make one point very strongly. 
When I was governor of Hong Kong, I had a huge amount of 
support from the State Department, from senators and 
congressmen and, which was particularly gratifying, huge 
support from the American business community.
    I think I can say that I had more support from the American 
business community than I had from any other, and that includes 
my own nationality.
    And there seemed to be a more instinctive understanding of 
two things. First of all, of the relationship between 
prosperity and all the freedoms that we take for granted in our 
democracies. That was important.
    And second, I think there was a much smaller, slighter 
inclination, though it exists a bit everywhere, a much smaller 
inclination to think that the only way you can do business with 
China is by kowtowing to China. I think it is complete dribble.
    When you actually look at runs of figures, it looks pretty 
obvious that the Chinese do business on the same basis as 
everyone else. They try to get the best deal they can at the 
best price. And I suppose we should not blame them if they take 
advantage of the fact that a lot of Western governments and 
even companies seem to think that in order to get a deal or get 
business you have to bend the knee to Chinese politicians. And 
I simply do not think it is true.
    So I got a huge amount of support from the American 
business community and American politicians. And I think that 
continuing to provide that support is very important. I think 
it is in America's interests as well as Hong Kong's.
    And I think that the more the American administration, 
American politicians make it clear that a very good litmus test 
of how we all think China might behave in the next few years is 
how it behaves in Hong Kong. It is not an unreasonable test to 
apply. They are bound by international treaties and we should 
hold them to that.
    Senator Daines. Lord Patten, thank you for your insights. 
My wife and I were together on our last visit to Hong Kong a 
few weeks ago. And I will tell you, we had a quiet evening walk 
in Central, reflecting on the Hong Kong of many, many years. We 
had our two babies there.
    And again, I want to thank you for your leadership and your 
steady hand of leadership during that transition time as the 
entire world was watching on July 1, 1997.
    Thank you, Lord Patten.
    Lord Patten. Thank you very much. And I hope your Hong Kong 
babies have grown up into, I am sure they have, into handsome, 
successful adults.
    Senator Daines. They are, but I will tell you their 
Cantonese skills are quite weak. [Laughter.]
    Chairman Rubio. Lord Patten, I have two observations before 
we thank you for your time.
    The first is, if your cousins over here across the Atlantic 
241 years ago had not been so rebellious in their revolution, 
both Senator Daines and I would be members of the ``U.S. House 
of Peers'' and he would be Lord Daines and I would be Lord 
Rubio. [Laughter.]
    And this is a joke and I am not suggesting it.
    Lord Patten. And I might have fetched up as governor of 
Ohio. [Laughter.]
    Chairman Rubio. Yes, sir. Well, it is like that title 
``supreme allied commander,'' it is just such a good title, you 
know? But ``senator'' is great.
    And the second is, as we look at Hong Kong, the one thing 
that strikes me is it really, in many ways, is an example of 
what China can and should be, a greater China.
    You know, there is this notion out there that somehow 
democracy is incompatible with the culture, which is absolutely 
false.
    And the second is, just think, this is one of the greatest 
civilizations in the history of mankind, which has made 
extraordinary contributions across millennia. Imagine that, 
that creativity, that thousands of years of culture and 
tradition and science and all these contributions that the 
Chinese people have made to the world was unleashed in an 
environment where there was political freedom, academic 
freedom, economic freedom.
    It would be an extraordinary contribution to the world. 
Hong Kong, a small, little sliver of land with a limited 
population, has done so much. It punches above its weight 
economically. Imagine if that were true for over a billion 
people in the mainland and what that could mean.
    And so for us, as much as anything else, Hong Kong is and 
remains, and it is why it is so important to us, an example of 
the extraordinary contributions that I believe the people of 
China have an opportunity to make in the 21st century to add to 
the extraordinary tradition of what they have contributed to 
the world for thousands of years.
    I am personally a huge admirer of the Chinese culture, of 
the Chinese history, of Chinese civilization and of the 
contributions they have made to all of mankind. And I am 
excited about what they are going to be able to do, if only 
over a billion of their people had both the political and 
economic freedom to truly fulfill their potential.
    And I think Hong Kong is a model of what that could look 
like if only these conditions were not to be eroded moving 
forward.
    Senator Daines. Chairman Rubio, if I might.
    Chairman Rubio. Absolutely.
    Senator Daines. Maybe I should just say Lord Rubio.
    Chairman Rubio. I thought you were going to, yeah. 
[Laughter.]
    Senator Daines. Yeah, Lord Rubio.
    Chairman Rubio. This was a joke and the media is watching. 
I am not actually suggesting you call us ``Lord.''
    Senator Daines. And the governor of Ohio here who is now on 
the--yeah.
    Chairman Rubio. Yes.
    Senator Daines. You know, Marco, you brought up a good 
point.
    And, Lord Patten, you mentioned the rule of law as being 
one of the primary differentiators for the long-term 
competitiveness of Hong Kong to prosper and to grow.
    The other point that I saw, again, when I was in Hong Kong 
was freedom. And we have seen the freedom indexes that Heritage 
puts out that Hong Kong is ranked number one. Of all the 
nations in the world, Hong Kong is ranked number one.
    And that was always such an example to me as a young 
manager for Procter & Gamble moving from the United States to 
Asia, to see a rock, a chunk of land there with no natural 
resources and tremendous prosperity and growth. And it was 
based on freedom, free markets, free trade.
    And it should always be a good role model and a case study 
for us as we look to the future. Thank you.
    Lord Patten. I agree with everything you have just said. 
And I agree with everything that Senator Rubio said before 
about Chinese civilization.
    I would just add one point, that it does seem to me that 
China faces a serious dilemma. And it should perhaps look to 
Hong Kong to find ways of dealing with it.
    On the one hand, there are those in China who say that 
unless the party gives up control over more of the economy, it 
will not grow so fast and sooner or later the party will lose 
control over the state, and others who say that if the party 
does give up control over the economy, it will certainly lose 
control of the state.
    And I think China's dilemma is, both those propositions are 
entirely true. And finding a way through those dilemmas, 
finding an answer to that paradox, well, you might start by 
getting Hong Kong right.
    Chairman Rubio. Again, we appreciate very much the time you 
have taken with us and your willingness to use this video 
conference to do so.
    And let us know when you are back in Ohio. [Laughter.]
    Lord Patten, thank you so much. We are really grateful to 
you.
    Lord Patten. I meant no disrespect for the admirable 
governor of Ohio, who I saw debating during your interesting 
presidential election campaign.
    Chairman Rubio. Yes, I went to a few of those debates 
myself. [Laughter.]
    That is another hearing, another time.
    Well, thank you. Thank you so much. We appreciate your 
time. Thank you.
    Lord Patten. Thank you very much.
    Chairman Rubio. Alright.
    Lord Daines, thank you for being here today. [Laughter.]
    We have got to stop the ``Lord'' thing, we are going to get 
in trouble.
    Alright. So we are going to move on. And we are going to 
make a special kind of accommodation here if the witnesses are 
alright.
    Joshua Wong needs to be on an airplane to Toronto. Assuming 
we are still going to get through the hearing, but what I would 
like to do is recognize him for his testimony.
    I would encourage you to be brief so we can get to 
questions and then we can get you to the airport. I can get you 
through this hearing, I cannot help you through TSA 
[Transportation Security Administration]. No one can, to be 
frank. [Laughter.]
    But Joshua, we are grateful that you are here today and we 
look forward to your testimony. I know I have a number of 
questions. Some of my colleagues could not be here today, they 
do have some questions in writing, I believe, and we will get 
those to you and you will answer them when you have some time.
    You are one of the busiest young people I have ever met in 
my life. You must have a lot of frequent flyer miles on your 
airline as well.
    But thank you, Joshua, for being here. We are honored you 
are here.
    Mr. Wong. Alright. Can you turn the mic? The echo sounds, 
is it possible to turn it----
    Chairman Rubio. That is just for effect to make it more 
powerful. [Laughter.]
    Mr. Wong. Alright.
    Chairman Rubio. No, I am kidding. I am joking. We will 
figure that out.
    Mr. Wong. Alright. Still use this?
    Senator Daines. Try Martin's.
    Mr. Wong. Testing, testing. Yeah, I think.
    Senator Daines. Try Martin's. Can you move Martin's over?
    Chairman Rubio. Let us slide over Martin's.
    Mr. Wong. Hello? Yeah?
    Chairman Rubio. Yeah, that one works well.
    We also have an autotune one which changes your voice a 
little bit. [Laughter.]
    Mr. Wong. Alright.
    Chairman Rubio. There we go.
    Mr. Wong. Testing, testing.

    STATEMENT OF JOSHUA WONG, UMBRELLA MOVEMENT LEADER AND 
             SECRETARY-GENERAL, DEMOSISTO<greek-th>

    Mr. Wong. Thank you for the invitation from CECC. This is 
the first time for me to attend a congressional hearing.
    You may have known about Hong Kong's political arrangements 
as ``one country, two systems,'' but it has now become one 
country, one-and-a-half systems. And potentially, one country, 
one system, in the future if conditions continue to worsen.
    I was born less than a year before the handover of Hong 
Kong from the U.K. to China in 1997. Now I am 20 years old.
    In the same time, the Hong Kong Government is preparing for 
its 20th handover anniversary celebration. July 1st will be the 
first time Xi Jinping visits Hong Kong as the Chinese 
president.
    To pave the way for that, we now face massive political 
persecution while the government intends to disqualify 
democratically lawmakers in the oppositional camps, including 
the core Umbrella Movement student leader, Nathan Law, who was 
elected last year as the youngest-ever legislator at the age of 
23.
    Unfortunately, Hong Kong remains far away from democracy 
after the Umbrella Movement.
    Some people think it is a failure because we cannot achieve 
the goal of universal suffrage. But I am here to tell you guys 
today that the spirit of the Umbrella Movement is in the hearts 
of Hong Kong people.
    That is why I have been trying to get more support at the 
international level by strengthening our collaboration around 
the world.
    I am glad to see the reintroduction of the Hong Kong Human 
Rights and Democracy Act by Senators Rubio, Cotton, and Cardin. 
Bipartisan support for the bill is proof that protecting Hong 
Kong's political rights, freedom, and autonomy can be and ought 
to be a consensus across the political spectrum.
    That is why I hope the legislation ensures those who have 
participated in non-violent assembly in Hong Kong would not be 
denied American visas on the basis of their criminal record.
    Alex Chow, who is in the audience this morning, is another 
core Umbrella Movement student leader. He was found guilty last 
July for participating in unlawful assembly, sentenced to three 
weeks of imprisonment with one year of suspension.
    Because of Alex's criminal record, he has faced significant 
barriers in obtaining a student visa last year for his master's 
degree in London. He was recently accepted for Ph.D. study at 
U.C. Berkeley this coming August, which means he will soon 
apply for a U.S. student visa. And I cannot stress the 
importance for this legislation for many of those like Alex who 
may potentially face difficulties entering free countries.
    China's suspension against us is helped by its growing 
regional domination. Last year, I was invited by a Thai 
university, but was not allowed to enter the country and locked 
for 12 hours in a detention cell.
    My request to contact a lawyer or at least notify my family 
in Hong Kong were both rejected. I was very worried to be the 
next Gui Minhai, one of the five booksellers abducted from 
Thailand to China.
    Luckily, I was finally released. But the Thai Government 
later said that I will be forever banned to enter the country 
at request by China.
    If the Hong Kong Human Rights and Democracy Act passes, the 
proposed legislation, I hope it will place human rights and 
democracy at the center of future American policy toward Hong 
Kong. It will send a strong signal to Beijing that, as a world 
leader, the beliefs of the United States are just as important 
to protect political freedom in Hong Kong as it is to protect 
economic freedom.
    The support of the proposed legislation is also in the 
American interests. Hong Kong is home to around 85,000 U.S. 
citizens and 1,400 U.S. companies. Two-way Hong Kong and U.S. 
trade was around 42 billion U.S. dollars last year. And most 
American media outlets, including CNN, the Wall Street Journal, 
and Time magazine have established an Asian office in Hong 
Kong.
    This is all evidence that, despite all the difficulties it 
is facing, Hong Kong remains the freest city under Chinese 
administration.
    In conclusion, I hope Democrats and Republicans alike can 
work together to defend the fundamental human rights value that 
they share. We Hong Kongers will continue to fight, hear our 
heart, against the Communist regime for the day to come for us 
with democracy and to exercise the right of self-determination.
    I started to fight for democracy six years ago when I was 
14 years old. The father of Hong Kong's democracy sits next to 
me, Martin Lee. He is turning 79 years old this year. After 
four decades of struggle, I wonder, if I come to the age of 79, 
will I be able to see democracy?
    My aspiration and our generation's challenge is to ensure 
that Hong Kong continues as the beacon of human rights and 
freedom for China and the world.
    To sum up, today the authoritarian regime dominates my 
generation's future. But the day will come when we decide our 
future. No matter what happens to the protest movement, we will 
claim that democracy belongs to us and continue our fight 
because time is on our side.
    Thank you.
    [The prepared statement of Mr. Wong appears in the 
appendix.]
    Chairman Rubio. Thank you, Joshua.
    Thank you. We are grateful that you are here, and have 
tremendous admiration for your advocacy. And I have often 
spoken about you to university students that I teach at Florida 
International University and in other places as an example of 
political engagement under quite difficult circumstances.
    We take, sometimes I should say, our freedoms for granted 
here in the United States because we have extraordinary 
freedoms. But we are reminded through you and others that there 
are incredible people around the world that are confronting 
this, as some of the panelists have as well.
    And again, I know you need to get to Canada, so I wanted to 
ask you a couple of questions.
    First, can you tell us how the Hong Kong Government's legal 
actions against democracy advocates and members of the 
opposition have influenced your thinking about the future of 
Hong Kong's democracy movement?
    Mr. Wong. Last year, September, was the Legislative Council 
election. Four newly elected legislators upholding civil 
disobedience entered the Legislative Council from the civil 
society. And later, the government just issued a court case to 
four of them, including two others advocating Hong Kong 
independence.
    Even if I am not the one advocating Hong Kong independence, 
but disqualifying the democratically elected legislators just 
proves that the Chinese and Hong Kong Governments will try to 
override the judicial independence and rule of law in Hong 
Kong. And it is totally not respectful to the current election 
system.
    And at the same time, political persecutions happen and 
also prove the hard line of President Xi. It is just following 
by newly elected chief executive Carrie Lam.
    After the 26th of March, the election day of the chief 
executive--the day after--the Hong Kong Government just 
arrested and prosecuted nine Umbrella Movement leaders. And it 
is just proof that in the future it will not be an easy time 
for us to fight for democracy.
    At the same time, the 3rd of July will be another court 
case and a trial for many to face. And the sentence is contempt 
of court. And in the worst case, I may be sent to prison for a 
few months or even a few years.
    But I will say that now, in fact, the fight for democracy 
is a long-term battle. In the last battle three years ago in 
the Umbrella Movement, even we cannot achieve a concrete 
political system reform, but at least we raised a new 
generation's political awareness and keep the international 
community's eyes on Hong Kong.
    That is why in this long-term battle, the new generation is 
ready for this fight until the day we get back democracy.
    Chairman Rubio. Well, explain to me, in your view, what 
does self-determination for Hong Kong mean?
    Mr. Wong. Self-determination to Hong Kong means that the 
political system, political status, and future constitutional 
arrangement of Hong Kong should be decided by Hong Kong people.
    According to the Sino Joint Declaration, it is proof that 
Hong Kong can implement ``one country, two systems'' from 1997 
to 2047 under the 50 years unchanged policy framework. After 
2047, I will be 51 years old. At that moment, I am not sure 
whether Hong Kong will turn to be one country, one-and-a-half 
systems or in a worse case, one country, one system.
    And what we hope is to let people realize that it is time 
for Hong Kong people to rule Hong Kong. And it is time for Hong 
Kong people to determine their own future.
    Chairman Rubio. Finally, what recommendations, and you 
touched on it a little bit when you talked about the hope that 
we could come together in a bipartisan way on some of these 
issues, do you have any recommendations on things we can do, 
whether it is this commission, the Congress, President Trump's 
administration, on what we can do here from the U.S. Government 
side to promote continued protections in Hong Kong for 
democracy and human rights and the rule of law? What is the 
best thing we can be doing?
    Mr. Wong. I hope the Hong Kong issue can get a higher 
priority in the political agenda of the United States toward 
China policy.
    We know that the South China Sea, Taiwan issue or others 
are always the main issues or the incidents that we need to 
tackle or face. But the fact is, I believe supporting democracy 
in Hong Kong just relies totally on the international treaty, 
Sino-British Joint Declaration.
    So what I hope is, in the future, supporting democracy in 
Hong Kong should be a bipartisan consensus. And I believe it is 
also an achievable goal for the international civil society.
    In the future, apart from having op-eds, press release 
statements before the 1st of July, to let people realize that 
while Xi Jinping has to approve everything that is under his 
control, we will still organize and hold large-scale 
demonstrations in Hong Kong to let him and the Chinese 
Government know that we are still continuing our fight to 
democracy.
    And at the same time, we just hope people around the world, 
especially in the international community, no matter senator or 
congressman, apart from op-eds and press releases, we hope will 
have the possibility to figure out a chance of organizing a 
delegation to Hong Kong and also pushing forward the Hong Kong 
Human Rights and Democracy Act.
    In the global effort, the international community can 
realize that supporting Hong Kong democracy is the only gateway 
or the window for us to push forward on the Chinese Communist 
regime to respect human rights, democracy, and rule of law.
    That is why, according to the U.S. business interests which 
care about the stability and prosperity of Hong Kong, according 
to what I have mentioned about the citizens and U.S. companies 
in Hong Kong, I hope in the future the new administration can 
also take Hong Kong as a higher priority agenda.
    Chairman Rubio. And I just want you to know that both in 
our private meeting and yesterday at our hearing, we have 
discussed with the president's nominee to be Ambassador to 
Beijing, Governor Branstad of Iowa, the importance of Hong Kong 
and of your cause.
    And my hope is that we can facilitate an opportunity for 
you and members of your political party to meet with him, if 
not here before he leaves, certainly once confirmed by the 
Senate.
    My final question for you, Mr. Wong is, I know that last 
week several Legislative Council members had been targeted for 
removal, but several of the party members were arrested last 
week. Can you update us on their status.
    Mr. Wong. The disqualification of the legislators' court 
case was issued in May, which means that a few weeks later, 
maybe two or three weeks later, we will know the results, 
including the Umbrella Movement student leader, Nathan Law, the 
youngest lawmaker in my hometown, whether they can still keep 
their seat in the Legislative Council.
    In the worst case, due to the current legal system in Hong 
Kong, if those legislators lose their court case, they need to 
pay the legal fees of the government side worth 3 million. So 
it will have the chance of facing bankruptcy for Nathan Law and 
other legislators.
    That is why it is time for us to face the prosecution and 
also the disqualification of legislators.
    Chairman Rubio. Were several members of your political 
party arrested last week? Where are they now?
    Mr. Wong. Yes. At the same time on Friday, two days later, 
the political movement activists, including two party members 
from my political party, Demosisto, Ivan Lam and Derek Lam, 
they will face a trial in the courts due to their participation 
in the assembly last November against the reinterpretation of 
the Basic Law from the National People's Congress.
    Chairman Rubio. But of the ones that were--how many were 
arrested last week?
    Mr. Wong. Nine.
    Chairman Rubio. Nine.
    Mr. Wong. Yes.
    Chairman Rubio. Of the nine that were arrested, do any 
remain in custody?
    Mr. Wong. They still get a chance to get bail and now they 
will wait. They are waiting to go to the courts on Friday and 
to face a trial.
    Chairman Rubio. But they are still in jail right now?
    Mr. Wong. No.
    Chairman Rubio. They are out.
    Mr. Wong. They are not in jail.
    Chairman Rubio. Oh, they are not. They were released.
    Mr. Wong. Yes, they were released and got a court bail.
    Chairman Rubio. And now they are awaiting trial.
    Mr. Wong. Yes, awaiting the trial.
    Chairman Rubio. Well, we appreciate very much, Mr. Wong, 
your being here today. We have seen you quite a bit in the last 
few months. I encourage you to continue to do what you are 
doing. Know that this commission, my office, the members remain 
at your disposal to continue to highlight your cause and the 
greater cause of democracy and rule of law in Hong Kong. And I 
wish you continued success, both on your trip now and as you 
work your way through.
    Which airport are you going through, Reagan or Dulles?
    Mr. Wong. I am not sure, I need to check my ticket. Sorry 
for that.
    Chairman Rubio. Yes. Maybe we should not announce which one 
you are going to. [Laughter.]
    Mr. Wong. Yes, thank you.
    Chairman Rubio. He is leaving from Baltimore. [Laughter.]
    So anyway, Mr. Wong, thank you very much for coming and we 
look forward to continuing to talk to you more and more about 
this in the weeks and months to come.
    Mr. Wong. Thank you. Yes, I appreciate it. And thank you to 
the CECC in their previous few years, especially since the 
Umbrella Movement, continuing to put effort to support 
universal suffrage, democracy, and the democratic camps in Hong 
Kong.
    Chairman Rubio. Well, we are just getting started. We are 
going to continue to press on the case. So we thank you so 
much.
    Mr. Wong. Yes, it is a long-term battle. Thank you.
    Chairman Rubio. We are going to move on now to our panel. 
And again, thank you for your indulgence because of the flight 
situation.
    So, Mr. Lee, I guess we will begin with you. And we thank 
you for being here and thank you for letting us use your 
microphone.

    STATEMENT OF MARTIN LEE, BARRISTER; FOUNDING CHAIRMAN, 
    DEMOCRATIC PARTY OF HONG KONG; FORMER MEMBER, DRAFTING 
  COMMITTEE FOR THE BASIC LAW; AND FORMER MEMBER, LEGISLATIVE 
                COUNCIL OF HONG KONG (1985-2008)

    Mr. Lee. Thank you, Mr. Chairman. Thank you for calling me 
as an expert witness.
    I remember the first testimony I gave to Congress was 1989, 
shortly after the massacre in Tiananmen Square. In a way, Hong 
Kong has been a miracle, because it is a tiny dot at the coast 
of China, and yet, even today, according to Lord Patten, with 
whom I agree, there is still the rule of law which separates 
Hong Kong from every other Chinese city. But that rule of law 
is now under threat, more than ever before.
    Chinese leaders have been asking our courts to cooperate 
with the government. And in June 2014, the Chinese state 
department issued a white paper in seven languages saying that 
all our judges are administrators, like other civil servants; 
and therefore, in trying cases, they must safeguard China's 
sovereignty, security, and development interests.
    The judges are extremely worried. Judges are human beings. 
You cannot expect judges alone to defend the rule of law 
without giving them the support of the community via democracy.
    And democracy has been delayed; delayed many times already. 
Under the Basic Law, our mini constitution, we were supposed to 
have full democracy after 10 years of the handover. This is now 
almost 20 years after the handover, still I cannot tell you 
when we will have genuine democracy.
    So Hong Kong is undergoing a very serious threat at the 
moment. That is why we are here. We are here to tell the world 
that things are going wrong. They are going wrong because China 
has not been honoring her obligations under the Sino-British 
Joint Declaration promising us democracy and the rule of law.
    Now, we have a window of opportunity because Mr. Xi Jinping 
will come to Hong Kong on July 1 to celebrate the 20th 
anniversary of Hong Kong going back to China. Mr. Xi must be 
told, politely, of course, but firmly, that the eyes of the 
world are on China, the eyes of the world are on Hong Kong.
    I think the administration here must realize that in 
dealing with China and hopefully making treaties with China 
over many issues, your administration must bear in mind that 
Hong Kong is now part of China. And if China can break an 
international agreement over Hong Kong with impunity, how much 
confidence can you have over new treaties to be made with China 
over other issues?
    So when I look at Hong Kong's future, I have confidence, in 
particular, because of the young leaders, like Joshua Wong and 
others. They have been fighting for democracy. They are now in 
trouble. They are prepared to pay the price for it.
    Of course, I would appeal to you, Mr. Chairman and your 
colleagues, to think of Hong Kong whenever you are dealing with 
China.
    I thank you for giving the Hong Kong people the support 
over my years of fighting for democracy in Hong Kong. I hope 
you will continue to give encouragement to the young leaders 
because they need your support more than we did, because the 
threat on Hong Kong's freedoms and the rule of law is now 
greater than ever before.
    But I must take a little time to thank your staff members. 
In fact, I do not understand why you want me to be an expert; 
they are experts on China and Hong Kong.
    And I thank you for the attention that, Mr. Chairman, you 
and your colleagues have continued to give to Hong Kong. And 
may the Hong Kong miracle continue. Thank you.
    Chairman Rubio. Thank you. We, too, are very proud of our 
staff and of the work that they do. And I appreciate your 
thanks.
    I do not require any thanks. I was raised in a community of 
people that lost their freedom, which makes me incredibly 
sensitive to people all over the world who are losing theirs.
    And with that, I turn to Mr. Lam for his testimony.
    And I thank you as well for being here. Your case and your 
work is inspiring to all of us.
    [The prepared statement of Mr. Lee appears in the 
appendix.]

STATEMENT OF LAM WING KEE, FOUNDER, CAUSEWAY BAY BOOKS, ONE OF 
     FIVE VICTIMS OF THE FORCED DISAPPERANCES OF HONG KONG 
                          BOOKSELLERS

    Ms. Mak [Interpreter]. Hi, I am Mak. Thank you, Mr. 
Chairman. I am Mak, a veteran journalist for over three decades 
and have been a witness to the erosion of Hong Kong's press 
freedom after the handover.
    The abduction of Mr. Lam Wing Kee, which I am going to 
translate for, is a case in point.
    The interference of the Chinese Government and its agents 
to press freedom in Hong Kong has changed from indirect to 
direct. Now is the time for us to listen to Lam Wing Kee in his 
own words.
    Lam.
    Mr. Lam. [Through interpreter.] Between October and 
December 2015, the disappearance of five persons of Causeway 
Bay Books in Hong Kong was investigated and confirmed by the 
Hong Kong media. The five were suspected to have been arrested 
or abducted by the Chinese Government.
    On October 17, Gui Minhai, a shareholder, was taken away 
from an apartment in Pattaya, Thailand by men.
    Lui Bo, another shareholder, was arrested by public 
security people in Shenzhen, China while having lunch in a 
restaurant.
    Cheung Jinping, an employee, was taken away from his home 
in Dongguan, China by armed policemen on the 23rd of October.
    I, myself, an employee, was detained by customs when I 
entered Shenzhen via the Lowu border on October 24 and secretly 
taken to Ningbo the next day. Lee Bo, also a shareholder, was 
abducted on December 30 in a warehouse parking lot in Chai Wan 
and forcibly taken across the border to the mainland of China 
by nine persons.
    Prior to the Causeway Bay Books incident, an elderly 
publisher named Yao Wentian, publisher of Morning Bell Press in 
Hong Kong, was lured to Shenzhen and arrested in October 2013, 
because he had been preparing to publish a book that was 
critical of Xi Jinping.
    In May 2015, he was charged for the crime of smuggling 
general cargo and sentenced to imprisonment of 10 years by the 
Shenzhen Intermediary People's Court.
    The owner, Wang Jianmin, and editor, Guo Zhongxiao, of 
another company that published the magazines New Way Monthly 
and Multiple Face, were consecutively arrested in their homes 
in Shenzhen. Two years later, they were sentenced to 
imprisonment of five years, three months and two years, three 
months, respectively.
    This string of events demonstrates not only brutal 
intervention in the freedom of expression in Hong Kong by the 
Chinese Government, but also how increasingly unscrupulous they 
are. They have arrested people at will with utter disregard for 
the law.
    According to Article 22 of the Basic Law, no department of 
the Central People's Government and no province, autonomous 
region or municipality directly under the central government 
may interfere in the affairs which the Hong Kong special 
administrator administers on his own in accordance with the 
Basic Law.
    According to Article 27 of the Basic Law, Hong Kong 
residents shall have freedom of speech, of the press, and of 
publication.
    According to Article 34 of the Basic Law, Hong Kong 
residents shall have the right to engage in literary and 
artistic creation and other cultural activities.
    From the events described, it can be seen that at least the 
above three articles of the Basic Law have been violated by the 
Chinese Government. Undoubtedly, the Chinese Government has 
violated legal provisions and seriously contravened its promise 
of allowing a high degree of autonomy to Hong Kong people.
    Chairman Rubio. If I may for just one second, Mr. Lam.
    If you will translate for me so he will understand.
    Here is our predicament. We only have you until 11:30. The 
Senate, as democracy works, has called a vote. And if I leave, 
the commission has to stop.
    Here is what I would propose, if this is possible. I would 
need to adjourn for five minutes so I can go to the floor, vote 
and come back. We can submit the entirety of the testimony into 
the record so he does not have to sit and read.
    And when I return, we can get to Ms. Bork and then to our 
questions so that I can still get you out by 11:30. But if 
there were other members here, we could trade. I am the only 
one here. So if I leave, apparently everything stops.
    And I am truly apologetic. I do not control the vote 
schedules. So if this is alright with Mr. Lam. Is that fine?
    Mr. Lam. Alright.
    Chairman Rubio. So it will probably take me about seven 
minutes, maybe eight if there are a lot of reporters in the 
hallway and I have to fight my way through them, and I will be 
back here so we can continue because I do want to get to Ms. 
Bork and I want to get to our questions.
    It is important that the answers get on the record because 
we use this with our colleagues to advocate policy.
    So we are going to stand for a quick recess of no more than 
10 minutes while I vote and return.

    [Whereupon, at 10:53 a.m. the hearing was recessed and 
resumed back on the record at 11:08 a.m.]

    Chairman Rubio. Alright, thank you for your indulgence.
    So I think we have a little bit of time left to finish the 
conclusion in English of Mr. Lam's testimony, then we can get 
to Ms. Bork and we can get to our questions.
    I do not believe there will be any other votes in the next 
30, 45 minutes.
    Ms. Mak. Alright. Let me just read out the statement by Mr. 
Lam.
    Being a victim in the Causeway Bay Books incident, I was 
illegally detained at first in Ningbo and then in Shaoguan for 
eight months. During that period, I was subjected to 
intimidating interrogation and was deprived of the rights to 
hire a solicitor and to inform my family.
    They also intended to force me into becoming an accomplice 
in carrying out continuous surveillance on the people of Hong 
Kong and the mainland of China.
    I earnestly urge the U.S. Government and Members of the 
Congress to pay heed to the notion of universal values, 
safeguard justice and human rights, freedom and democracy and 
exert pressure on the Chinese Government to release Gui Minhai, 
publisher of Mighty Current publishing, and Mr. Lee Ming-che, 
human rights advocate of Taiwan, who has been detained by the 
Chinese Government recently.
    Mr. Gui Minhai is the only person of the Causeway Bay Books 
incident still detained. Like myself, he was also forced to 
confess on television. His daughter, Angela Gui, had testified 
before this same commission last year.
    It would be most helpful if this commission can urge 
President Trump to bring attention to the cases of Mr. Gui and 
Mr. Lee when he visits China and President Xi Jinping later 
this year.
    In regard to the fact that Mr. Gui is a Swedish citizen and 
Mr. Lee Bo is a British citizen, China's foreign minister, Wang 
Yi, stated that they are first and foremost Chinese. And in 
fact, he is claiming that, regardless of their citizenship, the 
Chinese Government has the right to assert its control over all 
ethnic Chinese in the world.
    In respect of the Chinese Government's increasingly severe 
intervention in Hong Kong's administration, I appeal to the 
U.S. Congressional-Executive Commission on China to implement 
stipulations in the U.S.-Hong Kong Policy Act of 1992 as soon 
as possible to compel the Chinese Government to fulfill its 
assurance to Hong Kong people. Otherwise, Hong Kong would 
degenerate into a second-rate Chinese city way before year 
2047.
    Now I would like to speak on behalf of Hong Kong 
Journalists Association to say it is a critical time for 
freedom of the press and publishing to survive.
    We will continue our fight in Hong Kong. I would like to 
urge the commission to act now to back journalists, publishers, 
and freedom of information in Hong Kong. And thank you for your 
concern and support.
    Chairman Rubio. Thank you so much.
    Ms. Bork, thank you for your patience. And thank you for 
being here.
    [The prepared statement of Mr. Lam appears in the 
appendix.]

                STATEMENT OF ELLEN BORK, AUTHOR

    Ms. Bork. Not at all. Thank you for inviting me and giving 
me this opportunity to underscore what the people of Hong Kong 
are saying through elected representatives and the leaders of 
their democracy movement.
    The last time Congress took a really serious, in-depth look 
at policy and making law in Hong Kong was well over 25 years 
ago. A lot of things have changed since then.
    We have heard about the steady erosion of its autonomy and 
assaults on its civil liberties, interference in the courts.
    A good discussion could be had about whether there really 
was a meeting of the minds between Great Britain and China at 
the time. In any case, I do not think the Joint Declaration and 
its implementing legislation, which was passed by the National 
People's Congress, does justice to the people of Hong Kong.
    Hong Kong's freedom depends mostly on the support of the 
international community. That support has been, I think, quite 
strong in some ways, but too deferential to the arrangements 
that were written by China or agreed to by China with an eye 
toward keeping China's control through its control of the chief 
executive, giving it the right to reinterpret law and not 
allowing full democracy, as we have seen several times over the 
last few years.
    The arrangements that were made, and the U.S. policy based 
on them, were aspirational. Today, I think we have to take a 
much different approach to see what China is doing in Hong Kong 
and also how Hong Kong relates to its more assertive role 
around the world in challenging democratic norms.
    We hoped that Hong Kong would exist as an island in the 
midst of a huge autocratic system. That was unrealistic. If we 
want to protect Hong Kong, we have to look at China's role more 
broadly in undermining democratic norms around the world.
    That is why I think the Hong Kong Democracy and Human 
Rights Act is extremely important. It changes the outlook that 
Congress is taking, no longer hoping that Beijing will 
recognize its interest in Hong Kong's survival.
    Americans, I think, tend to project optimism onto other 
countries. We hope to find common ground and support for 
democracy, even in unlikely places, that is among the leaders 
of the Chinese Communist Party. Our Hong Kong policy was really 
based on that. Now we have to be a little bit hardnosed and 
realistic.
    The existing U.S.-Hong Kong Policy Act does not have much 
of a penalty, or enforcement. It does not impose consequences 
for what China has done in Hong Kong. It allows the president 
to change Hong Kong's status in some aspects of law, but that 
actually hurts the people of Hong Kong. It does not put the 
penalty where it belongs, which is on Chinese officials and 
their proxies who might be taking these steps.
    Some of the steps that they are taking are increasingly 
alarming as we have heard from my fellow witnesses here today.
    The most important thing about the Hong Kong Democracy and 
Human Rights Act is that it responds to interference, that long 
reach of China into Hong Kong. That is an extremely worrisome 
development, but it is also not an isolated one.
    The party has acted to seize dissidents in other countries. 
It has acted to repatriate Uyghurs. And frankly, this has gone 
relatively unopposed. We need to find ways to stand up to that.
    Also, we notice the criminalization of dissent, the 
prosecution of Hong Kong democrats. It is clear the party is 
going to go after Hong Kong democrats the way they go after 
dissidents and Uyghurs and, if they could, the Dalai Lama. 
China, I think, is behind Russia in manipulating the red 
notices of the Interpol system, but we can see from the way 
they are beginning to prosecute Hong Kong people that they have 
that in mind.
    The most important thing Congress can do right now is begin 
to treat Hong Kong as integral to a response to China's 
assertiveness. Congress should also consider China's 
assertiveness on democratic values as related to its military 
assertiveness as well.
    As long as the United States does not articulate support 
for democracy in Hong Kong and in China, I do not think we will 
be very convincing in our rejection of their aggression 
elsewhere.
    Thank you.
    Chairman Rubio. Thank you.
    And are you prepared for questions, Senator?
    Senator King. Sure.
    Chairman Rubio. I will defer to my colleague, Senator King, 
for the first round of questions.
    And you were not here, but Joshua Wong was here a moment 
ago. He had to leave for Canada, not permanently, just he is 
receiving an award, so we took his testimony and his questions 
ahead. But thank you for coming.
    Senator King. Yes, sir.
    This is a question for anyone on the panel. I visited Hong 
Kong some time ago and it was one of the most vital and 
energetic cities I have ever visited in the world.
    My question is, today's hearing and the materials that have 
been submitted have documented, I think, the diminution of the 
democratic ideal in Hong Kong. My question is, has that in turn 
affected the economy, vitality, energy, and forward-looking 
economy of the city?
    Mr. Lee, you want to start?
    Mr. Lee. Of course, it is very difficult to translate that 
in terms of dollars and cents. But it is the effect of the mood 
of the city and the mood of the people.
    Now, at the moment, after almost five years of governorship 
as it were or stewardship under the outgoing chief executive, 
Mr. CY Leung, the city, the population there is split. Now, 
that is a tactic deliberately employed by him and his minders 
who are in the central government liaison office. That is the 
Communist people in Hong Kong.
    And so when you have got a split community, it is very 
difficult to get things done. And I think the best person whom 
I quote is the last president of the Legislative Council in 
Hong Kong, who, in fact, belonged to their group, but is a very 
fair person. And he said that unless there is democratic reform 
in Hong Kong very soon, Hong Kong is ungovernable. And that is 
from the outgoing or the last president of the Legislative 
Council.
    So the new one, the chief executive-elect who will take 
office in a couple of months' time, now, Carrie Lam, in fact, 
before she won the election, said in public that she intends to 
continue with the policy of her predecessor.
    So everything now hinges on the president of China. If he 
does not intervene and correct this direction that has been 
going on in Hong Kong for almost 20 years now, then Hong Kong 
will soon go down the drain. We cannot afford to have another 
five years of this policy. This policy must be reversed.
    Senator King. Others comment on my observation or question, 
whether the de-democratization is leading to a diminution of 
economic activity?
    Mr. Lee. As I said, it has to be negative. But of course, I 
cannot give you dollars and cents at all. Because I remember, 
before the handover, there was a poll conducted among U.S. 
businesspeople in Hong Kong asking them, what would cause them 
to leave Hong Kong after the handover?
    There were two things. The environment, if the air is 
polluted to such an extent, they would rather run away from 
Hong Kong.
    Senator King. I remember the problem with the air.
    Mr. Lee. And the other one is the loss of the rule of law. 
So that is very important to businesspeople. If they see the 
rule of law not there, why should they do business in Hong 
Kong?
    But at the moment, the good news is our judges are still 
holding out. But how long can they last when they are subjected 
to such pressure from the central authorities?
    Senator King. Ms. Bork, do you have any observations?
    Ms. Bork. I do not have numbers, but I do think the 
question is what kind of economic activity. And as Martin says, 
whether the rule of law is affecting the way business is done. 
So I do not have any information on the volume of business.
    My sense anecdotally is that people feel the climate not 
only in freedoms of society has changed, but that the business 
climate also has changed. But I am honestly not the best person 
to comment on that.
    Senator King. I think it would be helpful to this 
commission if either other witnesses or staff could perhaps 
present some data----
    Ms. Bork. Sure.
    Senator King [continuing].----in terms of GDP of the city, 
employment, population----
    Mr. Bork. And corruption.
    Senator King [continuing].----corruption, indicia of 
activity. What I am trying to get at is, does the change in the 
governing system translate into a loss of economic opportunity 
for the residents. That is what I am looking for, so perhaps 
someone could think about that or our staff. I think that would 
be very helpful to look at the data and compare it with other 
areas, Shanghai for example, other areas of China.
    I think I am--yes?
    Mr. Lee. Can I perhaps have a follow up? And it is this. I 
entirely agree, figures could help. But one must remember that 
even if the figures show an improvement, one does not know how 
much more improvement there would have been----
    Senator King. Sure.
    Mr. Lee [continuing].----but for the erosion of the rule of 
law. But I agree with you, figures would certainly give some 
guidance.
    Senator King. Right, thank you.
    Chairman Rubio. Senator Cotton, are you prepared or did you 
want me to ask a question while you get ready?
    Senator Cotton. Always prepared.
    Chairman Rubio. Alright, good.
    Senator Cotton. I apologize to the witnesses, including the 
witnesses that had to leave. I was presiding over the Senate, 
which these two relatively junior Members of the Senate also 
know is a duty, not an honor. [Laughter.]
    So thank you for your patience.
    And I do want to thank you all for taking the time to 
testify today, but, more importantly, for the work you do to 
inform the world about Beijing's continued encroachments on 
human rights and basic freedoms in Hong Kong.
    This summer, Xi Jinping will mark the 20-year anniversary 
of Chinese control over Hong Kong with a visit to the city. One 
cannot be faulted for likening Mr. Xi's impending arrival to 
Hong Kong to that of a Roman emperor inspecting what he views 
as conquered lands. Because since his ascendance to power, Xi 
has accelerated Beijing's campaign to suppress all avenues of 
dissent in Hong Kong.
    First, he has targeted members of Hong Kong civil society 
to include the most vibrant members of civic life in the city, 
its publishers, journalists, and students, who now must fear 
being abducted in the middle of the night.
    When Chinese security forces are not conducting cross-
border snatch-and-grab missions, they instead rely on Hong Kong 
Government loyalists to round up opposition figures on false 
charges.
    Suppressing civil society, though, is not enough for Mr. 
Xi. The specter of Beijing's authoritarianism has now fallen on 
Hong Kong's legislative branch as well. Last year, China's 
National People's Congress barred pro-independence legislators 
from taking their seats in the city's Legislative Council.
    The incident only highlights Beijing's view that Hong 
Kong's independence is a convenient fiction, one that can be 
swept aside when it feels the need to rule by dictate.
    In July, Hong Kong's news chief executive, Ms. Carrie Lam, 
will take office. While I sincerely hope that Ms. Lam will act 
as an independent voice to stand for the basic freedom of all 
Hong Kongers, I certainly am not holding my breath. After all, 
Ms. Lam was Beijing's preferred candidate in this year's 
closed-door election by committee.
    How far we have come from the ``one country, two systems'' 
construct agreed to by Margaret Thatcher in 1984. How far we 
have come from the fiercely independent government that Lord 
Patten envisioned when he handed over control of Hong Kong on 
that rainy night 20 years ago in 1997.
    Slowly, but surely, Beijing has revealed that it never 
intended to honor its promises in Hong Kong. In the mind of the 
Communist Party leaders, to accept a true Chinese democracy 
would endanger Communist rule.
    I believe Beijing has this exactly backward. Instead of 
viewing a flourishing and autonomous Hong Kong as a threat, to 
see it as a shining example of what is possible in China and 
for the Chinese people. Instead of clinging to a system built 
on autocratic control and endemic corruption, centralized 
planning, Beijing should look to Hong Kong as a herald of 
reform.
    But unfortunately, Beijing has not followed that path. 
Instead, it increasingly resorts to gross human rights 
violations to quell dissent in Hong Kong. I believe the United 
States should not quietly accept the state of affairs.
    I am pleased to have introduced with Senator Rubio and 
Senator Cardin the Hong Kong Human Rights and Democracy Act 
which would require the president to identify and sanction 
persons responsible for suppressing basic freedoms of 
journalists, activists, and others in Hong Kong.
    Chinese Communist cadres who order the kidnapping and 
torture of members of Hong Kong civil society should not be 
allowed to stash their immense wealth in New York high-rises 
and Malibu beach homes.
    Now, some may say these sanctions are harsh or 
inappropriate for an issue that China deems an internal matter. 
I do not see that as the case. Hong Kong's autonomy is not a 
domestic Chinese issue after all, but a matter of Beijing 
honoring a longstanding international commitment. And if it 
will breach that commitment, which commitment will it not 
breach?
    Thank you all again for appearing before us today. And I 
want to turn to an impending question that many of us have on 
our mind, the accession of Carrie Lam to be the chief executive 
for Hong Kong.
    As you know, she served as Hong Kong's government 
representative in a two-hour televised debate with the Umbrella 
Movement leaders over Hong Kong's system of government. Given 
her history, I would like to ask each of our witnesses, do you 
believe she is willing or able to engage constructively with 
Hong Kong's pro-democracy groups, act independently from 
Beijing, and support rights legally granted to all Hong 
Kongers?
    And I will start from my left and move to my right.
    Mr. Lee. First of all, Senator, thank you for co-sponsoring 
this important bill.
    Now, right after her victory, Ms. Carrie Lam actually said 
that she would engage the democrats and talk about livelihood 
issues. But she also said on democracy issues, that would have 
to wait.
    Now, the trouble that we find ourselves in today in Hong 
Kong is because democracy, which was promised, has been delayed 
again and again. So she must not put democracy on the back 
burner and expect to work with the democrats.
    So the democratic camp and legislators in the democratic 
camp are not going to talk with her simply on livelihood 
issues. Of course, that is important, too. But she must start a 
dialogue with the democratic camp on democracy. Because without 
it, then the rule of law cannot be guaranteed.
    Senator Cotton. Thank you.
    Ms. Bork, if you would like to start.
    Ms. Bork. I am skeptical about how much a chief executive 
of Hong Kong can do, mainly because of the system that is set 
up where, in this case, she is chosen by a small committee of 
people of largely pro-Beijing sentiments. So I do not think it 
is sort of entirely up to her.
    And I do not think any of the chief executives have had 
great success, in a way because they are limited by this. They 
have to represent a people who do not get to pick them, but 
they are really carrying out, ultimately, Beijing's wishes, 
certainly on political matters. So I am not optimistic that she 
has any interest or latitude to advance democracy during her 
term at all.
    Senator Cotton. Mr. Lee.
    Mr. Lee. May I just elaborate a little more on that? I 
think Ms. Bork is entirely right.
    I think even if Carrie Lam wants to do good things for Hong 
Kong, she can only do so if Beijing permits her to do so. She 
is now the fourth, she will be the fourth chief executive in 
Hong Kong. And each one of them is actually handpicked by 
Beijing, because this so-called election committee consists of 
over 75 percent of their people.
    Senator Cotton. Mr. Lam.
    Mr. Lam. I am afraid that, in terms of freedom of 
expression, there might be a threat that this group of freedom 
of expression may be narrowed down further because of the 
enactment of the Article 23.
    So if such a legislation was enacted, whoever is talking 
about the independence of Hong Kong, independence of Taiwan, of 
Tibet, Mongolia, will not be allowed it. And even research in 
this regard will be limited, so that will hurt the freedom of 
publications.
    And I am worried that the chief executive to be will just 
follow the wish of mainland China and enact the Article 23 of 
the Basic Law separately, not in monolithic legislation, but 
separately, which will limit the freedom of Hong Kong people.
    That is all.
    Senator Cotton. And one final question that I would like to 
get your perspective on if you care to share.
    Given the recent arrests and crackdowns on pro-democracy 
activists and lawmakers, many analysts say this is in 
anticipation of Mr. Xi's visit later this year, do you agree? 
And if so, do you expect that to intensify in the coming weeks?
    Mr. Lee. There are two ways of looking at it. One way is 
that Mr. Xi certainly would like his visit to be welcomed by 
the people of Hong Kong.
    Now, the other way of looking at it is the Hong Kong 
administration would like to suppress more demonstrations and 
free expressions of views in order to let him come to Hong Kong 
without hearing too many noises. So I do not know what the 
outcome is.
    Now, if Mr. Xi knows what may happen in Hong Kong, I think 
the only good advice for him is to make sure that during the 
next two months or so that democracy would be given the go-
ahead, because that would convey the message to the Hong Kong 
people that if democracy can start now, then confidence, mutual 
confidence can also develop. And Hong Kong, in the eyes of 
China, will become a totally different picture.
    Now, we are all prepared to work toward that direction. The 
question is, how much does Mr. Xi want that to be?
    Ms. Bork. Yeah. I think, regardless of what happens in the 
next several months, the trend is very bad. I think these 
arrests that came up, that Joshua Wong responded to earlier, 
are an extremely bad sign.
    And I think also, the Congress needs to be aware of the 
developing sense of taboo topics and, as Mr. Lam said, the 
importance of being able to speak about things is vital.
    Although Lord Patten talked about independence as an 
unrealistic objective, I think he neglected to say that the way 
the party treats ideas it does not like as taboos is a real 
problem. And regardless of whether Hong Kong people can achieve 
or should achieve independence, the fact that any particular 
political idea is not going to be allowed or will be persecuted 
or prosecuted, like independence, a referendum, self-
determination and even democracy, is very troubling.
    And if Congress can find ways, frankly, even just speaking 
about it, we have to begin to not allow the distortion of terms 
or the outlawing of terms in Hong Kong or anywhere else.
    Senator Cotton. Alright, thank you all again.
    Chairman Rubio. And I have a couple of brief questions. I 
know the senators may need to go.
    I just want to say this on the record, because I know, Mr. 
Lam, that eventually you are going to find your way back toward 
home in Hong Kong and just know we are going to continue to 
keep tabs on you and on your situation very carefully.
    And I just want to be very clear. After your appearance 
here today, our view is that if any hostility comes your way 
upon your return, we will directly attribute that to your 
appearance here today and your willingness to speak truth 
before this commission and I believe should have a direct 
impact on the way we interact with the Chinese Communist Party 
and their government if, in fact, there is retribution sought 
against you for your appearance and your testimony here today.
    We would take it as a deep personal affront to members of 
this body that you would be treated in such a way if, in fact, 
that is the case. We hope that it would not be the case.
    We are limited on time. I promised you I would get you out 
of here by 11:30. I am pleased that members were able to come 
in the midst of everything that is going on.
    I have three quick questions that I want to make sure are 
on the record.
    And, Mr. Lee, what impact do you believe the reports under 
the Hong Kong Policy Act have on the situation?
    Mr. Lee. I think the reports are important. And I am happy 
that they will be continued, because that would then give 
Members of Congress a clear picture as to what is happening in 
Hong Kong.
    Now, of course, the Chinese Government will say mind your 
own business. But do not be deterred by that, Mr. Chairman, 
because you must remember that when the Sino-British Joint 
Declaration was first announced on the 26th of September, 1984, 
the U.S. Government strongly supported it, even though it was 
none of your business, to use the same language again.
    It was a treaty between the British Government and the 
Chinese Government. But both governments actually worked very 
hard lobbying for international support. So your government was 
lobbied hard and gave its support. So that gives your 
government every justification to say, ``Well, you wanted our 
support, we still support `one country, two systems.' And if it 
is not working well because of your default, why should we not 
be allowed to comment on it and ask you to deliver what you 
already promised? ''
    Chairman Rubio. Well, let me assure you, there is at least 
a dozen or so countries around the world that have told me to 
mind my own business just in the last month, and I do not.
    And I would also say that the human rights of our fellow 
brothers and sisters around the world is our business. It 
should be all of our business.
    And, Ms. Bork, I have read extensively the things you have 
written over the years on a number of issues, including this. I 
would just ask, and I think you touched on it briefly, but do 
you have any specific policy recommendations for the commission 
or the Congress with regard to the Hong Kong Policy Act, given 
the ongoing challenges to the autonomy and so forth?
    I mean, we are always looking for what can we do beyond 
holding these hearings and I think it is very powerful, the 
forum of the U.S. Senate. Beyond that, what?
    And if you do not, perhaps for the record later, some 
specific suggestions.
    Ms. Bork. Certainly, but I do think the Democracy and Human 
Rights Act that you are working on is major in that it would 
completely change the outlook toward Hong Kong policy, which 
has been to let things move along, let China see the value of 
Hong Kong staying the way it is, when, frankly, I do not think 
a Communist party really can quite do that, certainly not 
without being encouraged to do so by the world's most powerful 
democracy.
    So I would not, in any way, underestimate the importance of 
that addition of sanctions for misbehavior in Hong Kong. I 
think that is huge. And I will certainly be happy to think of 
some others.
    I think focusing on changes in Hong Kong's law enforcement 
culture is really important. What is going on that they can act 
this way? Can you begin to focus more on the autonomy of 
specific institutions; the courts, the police, law enforcement, 
other institutions? I think that is really vital, as well.
    Chairman Rubio. And I would just say, it is a very broad 
question, but I think to the point you just heard Mr. Lee 
discuss where we are going to be told mind your own business, 
why is this our business? Why should, at the most basic level, 
why should the people who sent me here from the State of 
Florida support my involvement on this issue? Why does it 
matter to them, why does it matter to the country?
    Ms. Bork. The United States has both an interest and an 
obligation to pursue these universal values. I mean, I think 
people often define them as though it is America foisting its 
own values. In fact, I think America, as the most powerful 
democracy, has the ability and the obligation to defend 
universal rights and freedoms for people who cannot.
    There is no doubt in my mind that it benefits the United 
States to function in a world with more democracies, more 
respect for freedoms, more respect for rule of law.
    And in all of my experience visiting and talking to 
dissidents, they welcome it. Democracy activists around the 
world always welcome it. They do not see it as an intrusion.
    So let us think about who is saying this is interference 
and who is not. I really think the world's democrats struggling 
for their own rights and freedoms do not see it as interference 
at all.
    Chairman Rubio. And, Mr. Lam, I ask you, given everything 
that you have confronted. We hold this hearing today, it is a 
commission. A number of my colleagues were able to come. 
Others, I know, follow carefully, but because of scheduling 
conflicts could not.
    And oftentimes, there is a feeling that what we do here is 
we hold these meetings and it is busywork, but it does not 
really make a difference because it is not a law or a program 
we are putting money behind.
    From your perspective as someone who has been persecuted, 
as someone who has been harassed, as someone who has been 
jailed because of your advocacy for these universal principles 
that we all believe in or should all believe in, when we speak 
about these issues, when we highlight cases like yours, when we 
have someone like Mr. Wong here, when we talk about these 
issues, can you tell us what that means to someone half a world 
away who is confronting these challenges and is often told by 
the tyrants that you do not matter, no one cares about you, no 
one, you are on your own and you are on a losing side?
    What does it mean that we do this? Is what we do here 
meaningful to people in your situation?
    Mr. Lam. I was encouraged by more than 6,000 people going 
to the street to support me. So when I heard the news, I 
desired to come out and speak about my case.
    My coming out demonstrates that all those, if we voice out 
the injustice, against the injustice, show that we oppose it, 
it will have effect and the cumulative effect will be more 
explicit.
    If everyone who faces this oppression of China will stand 
up, this will have an effect to fight against such suppression. 
So such kinds of hearings will be definitely beneficial to a 
situation like mine.
    Chairman Rubio. And I agree and I thank you for being here 
and all of you for being here.
    And I would close by telling you two examples of why this 
work can be rewarding. One of the cases we have discussed often 
in the commission, in hearings, in meetings has been the case 
of an American citizen, Sandy Phan-Gillis, who was unjustly 
jailed in China under ridiculous accusations. And we continue 
to raise her case, that and of her family, and that led to a 
positive outcome. One case among thousands that we are facing.
    The other is the case in a different part of the world of 
Aya Hijazy who was an employee at a nongovernmental 
organization working on a number of very important issues on 
the ground in Egypt. She was jailed under ridiculous charges.
    And I can tell you, when President el-Sisi of Egypt 
visited, there was not a meeting he had on the Hill where her 
case was not brought up, and that was true at his meetings in 
the White House, to the point where by the end of his visit he 
was a little annoyed. But Aya Hijazy is now in the United 
States along with her husband.
    And one of the stories that she shared with us, that, while 
still imprisoned, somehow someone was able to allow them to 
view videos of a speech that I was able to give on the Senate 
floor, and others, about their cause. And it certainly 
emboldened them and it made them understand that they mattered.
    The thing that tyrants and dictators and oppressors tell 
people all over the world is no one cares about you anymore, 
they have forgotten about you, they do not even talk about you. 
We are having meetings with presidents, we are cutting deals, 
we are doing all kinds of things, no one speaks about you. And 
I imagine it is designed to demoralize.
    As long as the people of Florida allow me to serve here 
there will be at least one senator that will continue to talk 
about you and everyone like you in Hong Kong, in China, and all 
over the world. And frankly, I think there is more than just 
one, there are numerous of my colleagues.
    And, you know, our hope is to continue to highlight human 
rights as a key pillar of our national security and our foreign 
policy. Because here is what I know, the more a country 
oppresses its own people, the likelier they are to create chaos 
and havoc and uncertainty everywhere else in the world.
    Meanwhile, for the most part, free people who choose their 
own leaders and have economic freedom do not have time for 
wars. They are interested in running a business. And if their 
leaders go too far, they vote them out of office, because they 
want peace and prosperity.
    Everybody has a different idea of what democracy and 
freedom may look like, maybe a parliamentary system, some have 
a house of lords, some have a senate. But the bottom line is 
that the greater role people have in choosing their leaders and 
the direction of their nations, the less likely those nations 
are to wage war against their neighbors and destabilize the 
world. And to retreat from that in this new century would not 
just be catastrophic, it would be tragic. And history will not 
be forgiving.
    And so your cause is a critical component of this broader 
strategy. And we will continue to raise it everywhere we can. 
And we are just grateful that we were able to have individuals 
like yourselves and, in particular, you, Mr. Lam, given the 
risks you run being here today.
    And I reiterate what I said at the outset, and I think I 
speak for every member of the commission and hopefully for 
every Member of the Senate in which I serve, that we will keep 
tabs and watch very closely how you are treated upon your 
return. We are glad you are returning. Hong Kong needs you.
    And we will watch very closely. And if, in fact, 
retribution is taken against you, we will attribute that to 
your presence here today. And it will impact everything that I 
do and hopefully everything that the Senate does when it comes 
to our interaction with the Chinese Communist Party and their 
government.
    So I thank you all for being here. I appreciate your 
indulgence. I apologize for the interruption, but we are 
grateful to you, to all of you, for your time.
    And with that, the meeting of this commission is adjourned. 
[Applause].
    Ms. Mak. And Mr. Lam would like to thank you, Mr. Chairman, 
and the Congress.
    [Whereupon, at 11:47 a.m. the hearing was adjourned.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                   Prepared Statement of Joshua Wong

                              may 3, 2017
    You may have known about Hong Kong's political arrangement as ``One 
Country, Two Systems.'' But it has now become ``One Country, One-and-a-
Half Systems,'' and potentially ``One Country, One System'' in the 
future if conditions continue to worsen.
    I was born less than a year before the handover of Hong Kong from 
the U.K. to China in 1997. I am 20 years old now. At the same time, the 
Hong Kong government is preparing its 20th handover anniversary 
celebration. July 1 will be the first time Xi Jinping visits Hong Kong 
as the Chinese President.
    To pave the way for that, we now face massive political 
prosecution, while the government intends to disqualify democratically-
elected lawmakers in the opposition camp, including the core Umbrella 
Movement student leader Nathan Law, who was elected last year as the 
youngest ever legislator at age 23. Unfortunately, Hong Kong remains 
far from a democracy after the Umbrella Movement.
    Some people may think it is failure because we can't achieve the 
goal of universal suffrage but I am here to tell you today that we the 
spirit of the movement is in the heart of Hong Kong people. That's why 
I have been trying to gather more support at the international level by 
strengthening our collaboration around the world.
    I am glad to see the reintroduction of the Hong Kong Human Rights 
and Democracy Act by Senators Rubio, Cotton and Cardin. Bipartisan 
support for the bill proves that protecting Hong Kong's freedoms and 
autonomy can be--and ought to be--a consensus across the political 
spectrum. The legislation ensures those who have participated in non-
violent assembly in Hong Kong would not be denied American visas on the 
basis of their criminal records.
    Alex Chow, who is in the audience this morning, is another core 
Umbrella Movement student leader. He was found guilty last July for 
participating in unlawful assembly, sentenced to three weeks of 
imprisonment with one year of suspension. Because of Alex's criminal 
record, he has faced significant barrier in obtaining a British student 
visa last year for his master's studies in London. He was recently 
accepted for Ph.D. studies at U.C. Berkeley this coming August, which 
means he will soon apply for a U.S. student visa. I cannot stress the 
importance of this legislation for many of those like Alex, who may 
potentially face difficulties entering free countries.
    China's suppression against us is helped by its growing regional 
domination. Last year, I was invited by top Thai universities, but was 
not allowed to enter the country and locked up for 12 hours in a 
detention cell. My requests to contact a lawyer or at least notify my 
family in Hong Kong were both rejected. I was very worried to be the 
next Gui Min Hai, one of the five booksellers abducted from Thailand to 
China. Luckily I was finally released, but the Thai government later 
said that I would be forever banned to enter the country, as requested 
by China.
    If passed, the proposed legislation will place human rights and 
democracy at the center of future American policy toward Hong Kong. It 
will send a strong signal to Beijing that as a world leader, the U.S. 
believes it is just as important to protect political freedom in Hong 
Kong as it is to protect economic freedom.
    The support of the proposed legislation is also in the American 
interests. Hong Kong is home to around 85,000 U.S. citizens and 1,400 
U.S. companies.
    Two-way U.S.-Hong Kong trade was around $42 billion last year. Most 
American media outlets, including CNN, the Wall Street Journal, and 
TIME Magazine establish their Asian offices in Hong Kong.
    These are all evidence that despite all the difficulties it is 
facing, Hong Kong remains the freest city under Chinese administration.
    In conclusion, I hope democrats and republicans alike can work 
together to defend the fundamental human rights values they share, 
which Hong Kongers will continue to fight hard against Communist Regime 
for the day will come for us with democracy and exercise our right of 
self-determination.
    I started my fight for democracy six years ago when I was 14. The 
Father of Hong Kong's Democracy, Martin Lee, is turning 79 years old 
this year, after four decades of struggle. I wonder, if I come to the 
age of 79, will I be able to see democracy?
    My aspiration, and our generation's challenge is to ensure that 
Hong Kong continues as a beacon of human right and freedom for China 
and the world.
    To sum up, today the authoritarian regime are dominating our 
future, but the day will come when we decide the future of Hong Kong. 
No matter what happens to the protest movement, we will reclaim the 
democracy that belongs to us, because time is on our side.

                               * * * * *

                     [New York Times, May 3, 2017]

                  Stand Up for Democracy in Hong Kong

                    (By Joshua Wong and Jeffrey Ngo)

    HONG KONG--The selection in March of the Beijing loyalist Carrie 
Lam as Hong Kong's next leader is the latest sign that China will 
continue to tighten its grip on this city. Political divisions will 
deepen and mistrust of the government will rise.
    Ms. Lam, who was picked to be chief executive by an election 
committee stacked in Beijing's favor, has long taken a hard-line 
approach to suppressing dissent. As the former No. 2 official under the 
unpopular outgoing leader, Leung Chun-ying, she presided over the 
political reform process that ignited the Umbrella Movement of 2014, in 
which tens of thousands of Hong Kongers occupied major thoroughfares 
for three months demanding democratic rights.
    With Hong Kong's autonomy plummeting to a 20-year low, it's more 
important than ever for Washington to affirm its commitment to freedom 
in Hong Kong. The Hong Kong Human Rights and Democracy Act, introduced 
by a bipartisan group of senators in February, would put the Hong Kong 
people's rights at the center of United States policy toward the 
semiautonomous Chinese territory.
    The legislation, an update to a 1992 law governing relations 
between the United States and Hong Kong, would authorize the president 
to freeze United States-based assets of individuals who have suppressed 
freedoms in Hong Kong and deny them entry to America, require the 
secretary of state to issue an annual report on Hong Kong's political 
situation until at least 2023 and guarantee that Hong Kongers who have 
participated in nonviolent assembly would not be denied American visas 
on the basis of their arrest.
    Our freedoms in Hong Kong have been increasingly squeezed since 
2014, when the Chinese leadership in Beijing decided against 
democratizing the process for selecting our leader, inciting the months 
of protests.
    A renowned legal scholar and former law school dean at Hong Kong 
University was denied a promotion to a top leadership post at the 
university because of his pro-democracy positions. Five Hong Kongers 
working for a bookseller that sold books critical of Beijing were 
abducted and taken across the border to China, where one was coerced 
into confessing to crimes on national television. Democratically 
elected lawmakers in the opposition camp have been facing costly 
lawsuits filed by the government to disqualify their seats. Democracy 
activists have been rounded up for leading protests against the 
government.
    Beijing's fear of separatism and President Xi Jinping's 
uncompromising leadership style mean the situation is likely to get 
worse before it gets better. The Hong Kong Human Rights and Democracy 
Act would put much-needed pressure on American presidents to stand up 
to Beijing for its aggression against the people of this territory.
    No United States president has visited Hong Kong since Bill Clinton 
in 1998. The State Department stopped issuing periodic assessments of 
Hong Kong's political situation in 2007. Former President Barack Obama 
showed only tepid support for the Hong Kong democracy movement.
    President Trump hasn't spoken much yet about Hong Kong, but his 
China policy has been disappointing. He showed some early signs of hope 
when, as president-elect, he seemed willing to challenge the unjust 
``One China'' policy on Taiwan, but he has since backed off from his 
tough talk against Beijing.
    Congress should do its part to renew White House interest in Hong 
Kong, sending a message that the United States is concerned about our 
political freedom. Hong Kong, in spite of all the difficulties it is 
facing, remains the freest territory under Chinese control. For 
dissidents in the mainland, Hong Kong's social movements have long been 
sources of hope. Safeguarding what has made Hong Kong unique is in 
Washington's interest, especially if Americans wish to someday see a 
free and democratic China.
    The Hong Kong Human Rights and Democracy Act--recently introduced 
in the Senate by Republican Senators Marco Rubio and Tom Cotton, along 
with Democratic Senator Benjamin Cardin--has received bipartisan 
backing at this early stage. American conservatives and liberals alike 
should support the bill and help uphold their shared values of freedom 
and democracy for this corner of the world.
    Joshua Wong is the secretary general and a co-founder of Demosisto, 
a political party in Hong Kong. Jeffrey Ngo, chief researcher for 
Demosisto, is a master's degree student in global histories at New York 
University.

    Follow The New York Times Opinion section on Facebook and Twitter, 
and sign up for the Opinion Today newsletter.

    A version of this op-ed appears in print on May 4, 2017, on Page 
A12 of the National edition with the headline: Stand up for democracy 
in Hong Kong.
                                 ______
                                 

               Prepared Statement of Martin Chu-ming Lee

                              may 3, 2017
    On the night of July 1, 1997, my home, Hong Kong, a territory of 
then-7 million people was handed over from Britain to the People's 
Republic of China. Twenty years later, we have come to a critical 
moment: Promised democratic development has been totally stopped, and 
the autonomy and core values we have worked hard to preserve under both 
British and Chinese rule are in serious danger.
    I am 78 years old, and have been working for four decades as a 
lawyer and advocate for Hong Kong. I have been the bar chair, an 
elected legislator, a pro-democracy political party founder, and a 
member of the Basic Law drafting committee, working for the mini-
Constitution agreed by China that was supposed to protect the rights of 
Hong Kong people.
    In all of these roles, my goal has been to preserve Hong Kong's 
freedoms, core values, and way of life. My generation has fought hard. 
But it is the future generation you have heard from today, represented 
by Joshua Wong, whose members are even more adamant that their rights 
be preserved and enlarged.
    The framework for the transfer of Hong Kong's sovereignty and 
people was established by the 1984 Joint Declaration, an international 
treaty registered at the United Nations. In that treaty, Hong Kong 
people were promised ``one country, with two systems,'' that we could 
rule our affairs with a ``high degree of autonomy,'' and that our 
rights, freedoms, rule of law, and way of life would continue for at 
least 50 years after Britain ceded Hong Kong to China
    Beyond these assurances, after 150 years as a British colony, we 
Hong Kong people were promised that we would gradually progress toward 
elections based on universal suffrage. This arrangement has protected 
free political speech in the city and kept alive hopes for a degree of 
electoral democracy that we were also denied under British rule.
    Twenty years ago, the ``one country'' part of this agreement was 
completed, when China assumed control over Hong Kong on July 1, 1997.
    But I am here to tell you today that we are still waiting for the 
``two systems'' promises to be upheld.
    Until we are masters of our own house, you cannot say ``two 
systems'' is a reality. And without democratic elections, not one of 
our freedoms is secure.
    Let me be clear: Hong Kong people are not challenging Beijing. We 
are merely asking that China uphold its pledge to let us freely choose 
our leaders by universal suffrage, and exercise the ``high degree of 
autonomy'' promised in the 1984 Sino-British Joint Declaration as a 
condition of the handover of Hong Kong.
    Since the July 1, 1997 handover, Hong Kong journalists, lawyers, 
students, religious leaders, teachers, business executives, and other 
citizens have fought hard against every encroachment by Beijing. Our 
society is as free as it is today because of those efforts.
    But much more needs to be done if Hong Kong is to remain a model 
for people seeking democracy and opposing authoritarianism.
    We have fought to preserve our core values, including the rule of 
law, transparency, a free flow of information, and free markets--the 
values that have long been a beacon for China and beyond.
    But the past three years have seen an acceleration of worrying 
encroachments:

        <bullet> Beijing's extrajudicial abductions of publishers and a 
        businessman from Hong Kong;
        <bullet> The removal of elected Hong Kong leaders, by Beijing's 
        interpretation of the Basic Law;
        <bullet> A surge in arrests of peaceful critics; and
        <bullet> Attacks on our independent judiciary.

    These developments spotlight the failings of the ``one country, two 
systems'' model and the need for democratic elections to preserve basic 
rights and freedoms in our territory of 8 million people.
    This trend also spotlights the role of the US, and the 
international community. The US approach in Hong Kong is governed by 
the US-Hong Kong Policy Act, which is rooted in the Joint Declaration, 
and gives the US Congress the right and obligation to speak up when 
freedom in Hong Kong is under threat.
    Over the past four decades, Hong Kong's resilient people have 
weathered the announcement Hong Kong would be handed over to China, 
Tiananmen Square's dashing of the hope for democracy both in China and 
Hong Kong, and the race against time to create Hong Kong's own 
political institutions despite China's opposition.
    This means we cherish our freedoms more, and we recognize how 
important their example is to any hope of a rights-respecting China in 
the future.
    For our young people, this long road to ensuring the rights we were 
promised is a reminder that as Americans know from their own history, 
freedom is not free--it takes vigilance and persistence, a battle that 
sometimes extends over multiple generations.
    When Hong Kong was promised by paramount leader Deng Xiaoping that 
we would keep all of our freedoms for 50 years after 1997 unchanged, we 
understood that we have to insist that every single freedom is kept 
intact--100%. If we do, there is a chance for those freedoms to some 
day come to China.
    But 20 years after the handover, China's Central Liaison office in 
Hong Kong has gone from being a representative office to issuing 
pronouncements that undermine the integrity of our system.
    Last week, the legal chief of the China's liaison office claimed 
that ``one country'' must come before ``two systems,'' and suggested 
abrogating the treaty if Hong Kong people protest. This undermines 
confidence in the system, and further alienates the youth who are our 
future.
    It is a deeply unwise statement guaranteed to generate yet more 
protests--obviously the opposite of what Beijing wants.
    It is increasingly our young people who are literally on the 
frontlines of protests for democracy in Hong Kong. This includes many 
who weren't even born at the time of the handover in 1997.
    These young people understand very well what makes Hong Kong 
special and different from mainland China. They have a life ahead of 
them based on ``two systems.'' They don't want to live in a Hong Kong 
that becomes ever more like China's system of cronyism and corruption. 
They value academic freedom, press freedom, and the ability to protest, 
speak and write freely.
    The young generation has now seen 20 years of the older generation 
trying to get Beijing to carry out its promise of two systems. They 
have more reason than their parents and grandparents not to trust 
Beijing's promises because the promises of the Basic Law have been 
broken.
    They don't trust the present and won't wait another 20 years.
    There is still a roadmap to restore relations between Hong Kong and 
China, which would involve Beijing discovering better judgment, as it 
has done before.
    China needs to make sure that the ``two systems'' survives--both as 
a model for Taiwan, but also as an incentive for younger generations to 
stay and build on our successes.
    When Xi Jinping comes to Hong Kong for the anniversary of the 
handover on July 1 this year, I hope he will personally reverse the 
dangerous course of the last two decades, and confirm that our freedoms 
and way of life are good for China too.
    It would be helpful if the US Congress and administration reminded 
him that mature countries respect treaties such as the one lodged at 
the UN through which China pledged rights for Hong Kong if Britain 
agreed to give up control.
    Now is the time when the world is wondering if China will be a 
responsible member of the global community, and the US is trying to 
develop a good strategic relationship with China.
    Thus China needs to show the world it can be trusted to uphold 
international agreements and play by the rules.
    What better place to start than Hong Kong--where it already obliged 
to do so?

                   Prepared Statement of Lam Wing Kee

                              may 3, 2017

        My Testimony Regarding the ``Causeway Bay Books'' Event

                               prologue:
    Between October and December 2015, the disappearance of five 
persons of Causeway Bay Books in Hong Kong was investigated and 
confirmed by the Hong Kong media. The five were suspected to have been 
arrested or abducted by the Chinese government. On 17 October, GUI 
Minhai (shareholder) was taken away from an apartment in Pattaya, 
Thailand by a man. LUI Bo (shareholder) was arrested by public security 
people in Shenzhen while having lunch in a restaurant. CHEUNG Chiping 
(employee) was taken away from his home in Dongguan by armed policemen 
on 23 October. I myself (employee) was detained by Customs when I 
entered Shenzhen via the Lowu Border on 24 October, and secretly taken 
to Ningbo the next day. LEE Bo (shareholder) was abducted on 30 
December in a warehouse carpark in Chai Wan and forcibly taken across 
the border to the mainland of China by nine persons.
    I, LAM Wing Kee, provide my testimony below:

    At 11 a.m. on 24 October 2015, I crossed the border at Lowu, 
Shenzhen, to meet my girlfriend in Dongguan. I was detained by Shenzhen 
Customs, taken onto a 7-seater car and driven to a Shenzhen police 
station the same day. I asked those who were taking me what crime I had 
committed and nobody gave any answer. Sometime after 7 o'clock in the 
evening, two investigative officers came to interrogate me. I had met 
one of them in 2012, when I was found carrying a book across the border 
for postal delivery to a reader. The officer taking records on that 
occasion was surnamed LEE, in his mid-twenties, while the person asking 
me questions was also surnamed LEE, in his early-fifties. On that 
occasion I was interrogated for over six hours and it was eventually 
confirmed that I really operated a bookshop in Hong Kong with no other 
intent.
    Then the older one left the room to handle procedural matter for my 
release and I had a conversation with the recording officer. Because of 
the prior encounter, the younger Lee and I recognized each other 
immediately when we met again that evening. I felt a little delighted 
and was rather naive in thinking that China Customs had mistaken me for 
someone else because I thought that the recording staff in his early-
thirties could prove that I ran a book shop and I would be released in 
no time.
    However, when I nodded and smiled at him, he roared at me saying 
that I was unrepentant even till death. I thought he was mistaken. Ever 
since I was held up and investigated last time, I no longer help others 
in bringing books across the border. Through the iron bars of the 
custody room, I took a look of the other officer who was somewhat 
older. I told the one whom I recognized that I had not committed 
wrongdoing again. Furthermore, I signed a letter of remorse last time 
and gave my word. Yet, upon hearing my explanation, he got even 
angrier. He banged on the table and rebuked: ``Do you know who you are? 
Your sending books is intended at overthrowing the Chinese government. 
We are the Central Task Force. It is our task to impose proletariat 
dictatorship rule over Hong Kong people like you.'' I was extremely 
surprised, not quite believing what I heard. I know that the Central 
Task Force was a tool used in the Cultural Revolution to tackle class 
enemy and that many people were put to death by it. I sensed the 
seriousness of the situation, but at the same time I was rather 
confused. To make sure, I asked him to repeat what he said. But he 
seemed to be aware that he had given something away. He merely stared 
at me, still in anger. At that time the one next to him opened a note 
book, signaled his colleague to sit down, and started interrogation.
    The next morning, sometime past 7 am, I ate the bread given to me 
by the guard. I was then handcuffed, blindfolded, got a cap on my head; 
taken on a 7-seater car to Shenzhen train station, and changed onto a 
speed train. Roughly 13-14 hours later, we arrived at Ningbo Station. 
Throughout the journey I was anxious and restless, eager to know where 
I was being taken. Though I was tied to the iron seat and despite the 
fact that I had not slept the night before, I tried hard to keep up 
spirit and paid attention to the stops made. When we got off the train, 
I peeked through the fringe of the eye mask and saw an illuminated 
station sign: Ningbo station. The car used after we got off the train 
was probably also a 7-seater. I was placed in the middle seat at the 
back with people by my two sides. After 40 minutes or so, I was held to 
go up to the 1st floor of a building and then into a room. When the 
handcuffs, eye mask and cap were taken away, sudden exposure to light 
prevented them from opening fully. Before I could see the environment 
clearly, I was told to go to a corner where there was a half-
translucent screen, six-and-a-half ft. high and serving as partition 
for a squat-type latrine. I was told to take off all my clothes, 
squatted and stretched out my arms and feet for examination. Then I 
changed into prisoner top, orange in colour, and cotton sweat pants in 
cement-like colour. What crime have I committed? As my glasses were 
taken from me when I boarded the train blindfolded, I was directing my 
question at people with blurred faces. Again I got no reply.
    I was waken up at 7:30 in the morning. I washed and brushed up; and 
later had breakfast at 8 a.m. It included congee of corn which had been 
grinded like sesame, a bun, fried egg and pickle etc. As I was about to 
eat, the guard standing by the screen came close for fear that I might 
take some other action. As I ate, I made observation of the 
surrounding. The previous night I was so tired that when they pointed a 
bed to me indicating I could lie down, I tumbled into it and readily 
fell asleep. Once I finished eating, the guard immediately removed the 
plastic meal box and plastic spoon and handed them to another guard at 
the door. The one sitting at the door kept staring at me with his arms 
crossed. I knew that there would be interrogation later, so I made use 
of the time gap to think things over and figure out the situation. From 
where I was merely a day ago, I was taken to this place a thousand 
miles away. I picked up one of the plastic slippers they gave me and 
inspected the sole. It bore the place of manufacture: Ningbo. Is this 
place Ningbo? I showed the slipper to the guards. Both of them were 
still young and had an air of innocence, apparently not yet nurtured 
into ``angry youths.'' Although I repeatedly asked many times what 
crime I had committed, no answer was given still. I turned my head and 
saw that the other guard behind was also staring at me. At that moment 
two persons entered.
    One was a tall big guy who did not identify himself. He later said 
that he surnamed SHI. He was the chief interrogator. The other one, who 
had about the same height as mine, should be the assistant. They 
started by asking my name, address in Hong Kong, job, position and why 
ownership of the bookshop was transferred to Mighty Current etc., which 
were about the same questions asked during the interrogation in 
Shenzhen. Then I was asked about the mailing of books: when did it 
start, the kind of books sent, how many had been sent, the means of 
sending etc. I gave factual answers while SHI, who remained 
expressionless on his face throughout, made record on computer. At that 
point I made further attempt to ask: what crime had I committed? The 
tall guy kept on typing without any response. I looked at the other 
one. Leaning against the back of chair, he looked at me with a strange 
expression in his eyes, surprised that I was unaware of a serious 
disaster to come. Mr. SHI gave me a piece of paper and told me to sign. 
It included two statements: one was to voluntarily give up the right to 
notify my family, another was to voluntarily give up the right to 
employ a lawyer.
    Interrogation continued like that, from 4 or 5 times a week in 
November to 2 or 3 times a week in December. They brought up questions 
about co-workers in the bookshop: GUI Minhai, LEE Bo, CHEUNG Chiping 
and how I got to know them. I answered factually to the best of my 
knowledge. At that time, I had no idea of their lock-up yet. GUI 
Minhai, in particular, was abducted in Thailand on 17 October 2015. LEE 
Bo disappeared in the evening of 30 December 2015, whereas LUI Bo and 
CHEUNG Chiping had their mishap even earlier than me: LUI Bo on 14 
October 2015 in Shenzhen and CHEUNG Chiping on 23 October in Dongguan. 
(CHEUNG Chiping himself told me about the date of his mishap when the 
four of us met over dinner in ``Unicorn Hill'' in Shenzhen, under the 
arrangement of the Chinese investigative staff handling our cases. It 
was in the same evening that I was told by LUI Bo that his arrest took 
place in a restaurant in Shenzhen.) In mid-December 2015, the guy 
surnamed SHI showed me some computer records which startled me. Those 
were records of postal purchases with the book shop from September 2013 
to October 2015. Names, telephone numbers and addresses of all 
subscribers, overseas and in mainland China, and even the number of 
books ordered and postal record numbers were there. Everything was 
shown clearly. As I viewed the screen, I quietly wondered how they 
managed to get the information of readers' book orders. Did they get 
hold of my key and sent people to the book shop to steal? Could they be 
so audacious and reckless as to engage in cross-border jurisdiction?
    Indeed they were audacious and reckless enough to carry out cross-
border jurisdiction. In an interview with ``Initium Media'' in Hong 
Kong before his disappearance, LEE Bo had clearly indicated that he 
would not enter mainland China. The interview was conducted in November 
2015. Yet he suddenly disappeared on 30 December. Two days later, his 
wife found his Home Return Permit in a drawer. LEE Bo returned to Hong 
Kong in March 2016 to cancel the case which had been reported to the 
police. He met the media and said that he smuggled into China so as to 
assist the mainland authority in some investigation. He was clearly not 
telling the truth It was merely because his child was in Fujian that he 
was compelled to cooperate. Furthermore, when I went to LEE Bo's office 
on 14 and 15 June 2016 to get hold of the computer (with records of 
postal-order subscribers) at the request of SHI, LEE privately told me 
twice that he had been taken away and escorted to the mainland by some 
people. Although he denied this afterwards, it is really not difficult 
to infer from various details of the case that LEE Bo was forced to go 
to the mainland against his wish. Obviously, the Chinese government has 
inflicted damage to the One-country, two-systems and violated its 
assurance to Hong Kong people under the Basic Law.
    I was alone and helpless. I am not sure if it was the endless 
interrogation or infinite custody without charge that made me start to 
consider suicide in just 3 months. Whenever I looked carefully, I could 
see that the four walls were covered with soft pads. Obviously, any 
attempt to break my neck by knocking against the wall would not work. 
The ceiling was close to 20 ft. high, and there was no way I could 
twist my pants into rope for hanging on it. There was a big 
inaccessible window, with iron bars blocked by barbed wire which could 
not be opened with bare hands. The shower head, installed high up, was 
arc-shaped and could not hang anything. The more one looked at the set-
up of the room, the more one got frightened because, clearly, long-term 
solitary confinement and isolation must have resulted in nervous 
breakdown for somebody and led to suicide in the past. All the measures 
in the room were aimed at preventing suicide. I was probably in such a 
state of mind when the idea of suicide came up. I think I did not feel 
too frightened of death itself because, after all, every person must 
die. It is the fear of death that I feared. All of a sudden, I seemed 
to be experiencing the inner feelings of someone with desire to die.
    Around the middle of January 2016, they brought a document for me 
to read. It was a letter of confession regarding a charge against me: 
``Selling books illegally.'' The letter head was The People's Republic 
of China. The date--in year, month and day--was given at the bottom. I 
held my head up. The assistant staff wanted me to sign, similar to the 
day when I was imprisoned in Ningbo and asked to sign those statements 
of giving-up my rights. I thought that since I had signed on the 
previous occasion, there was no way not to sign this time although I 
knew that such method in handling the case was illegal. Fine. Upon 
signing, Mr Shi had a more relaxed expression on his face. Then he 
turned on the computer and asked me to identify some people. I leaned 
forward to view the screen. It was information relating to postal 
delivery for readers. Some readers placed orders via email. I never met 
them. Some people came to the shop to make purchases for postal 
delivery. ``Who is this person, do you know? '' I saw the names against 
the cursor. They were ordinary readers, I told him. I did not know 
their background. Then a few more were pointed out to me to see if I 
were familiar with them. I kept shaking my head. They knew I would 
cooperate.
    Several days later, I was asked to write a letter of remorse. 
Actually I had not committed any crime. I did not know how to write 
such a letter. Somehow I began like this: ``Because I have committed a 
crime, I now sincerely express regret to the Chinese government . . .'' 
With difficulty I waffled on and managed to fill up an A4 sheet. The 
next day the assistant staff came to take the sheet away, probably to 
be handed to SHI for inspection. I thought my half-hearted confession 
would work. I went to the window and viewed up the sky again. The 
opposite building was visible from this side. Sometimes I gave the 
excuse of using the toilet and tip-toed on the raised step of the 
squatting toilet to look outside. I counted 20 big windows on the 
opposite building. It had 5-stories, probably the same for the building 
where I was. There were a few more buildings on the right. If there was 
no mist, I could see the top of several hills. Later, when there was 
arrangement to make video recording of me, I was moved to another room 
along the corridor. There, I could see that next to another building at 
the back was also a small hill. I reckoned that I was detained in a 
place surrounded by hills on three sides. Misty in the morning and at 
night, it should be a basin. Furthermore, when I was taken outside 
during that period, blindfolded, and driven by car to another place for 
taking my confession video, both exit and return entry were made 
through the right-hand side at the back, which means there must have 
been only one entrance. Therefore I was even more certain about it. 
Later on, news reports in Hong Kong said that we were kept in custody 
in Ci Xi Detention Centre of Ningbo. That was probably a mistake. As 
seen from photos of the Ci Xi Detention Centre, the place does not 
appear to be a basin. Besides, I had subtly taken a peep at the 
entrance which was only an electric gate with no sign whatsoever.
    Around January to February, I signed the letters of confession and 
remorse. I thought the case would soon be over. With all procedures 
completed, one only has to wait for sentencing by the Court. SHI 
provided a case for my reference. In 2011, a person from north-eastern 
China had also committed the crime of ``Selling books illegally,'' 
involving a sum of over three hundred thousand dollars. In the end he 
was given a jail term of five years. SHI said that if the Chinese 
government held me responsible for the criminal guilt since the change 
in ownership of the book shop, and because the sum involved in mail 
delivery of books was not high, somewhat over a hundred thousand 
dollars only, most likely the sentence would be two years. At that time 
I had already given in to fate. I know that the Court is merely for 
show. The so-called courts in China are only responsible for passing 
sentences, as all suspects are already regarded as convicts once the 
trial procedure is completed. Solicitors are employed merely for the 
purpose of making pleads. Little did I know the situation was more 
complicated than that. They later showed me some books, about eight or 
nine of them, all being publications of Mighty Current. SHI picked a 
few and asked me about the contents, source of information and whether 
I knew the authors. I explained to him that I was only engaged in the 
selling of books and was not knowledgeable about the things he asked 
because those were publication matters. Only the bosses GUI Minhai and 
LEE Bo knew all about the publications of Mighty Current. Not long 
afterwards, I was told I could get a bail but before that, I had yet to 
wait for people from Beijing to examine my behavior.
    By then confession videos had already been taken. The recording 
process took place six or seven times in the room where I was 
imprisoned, and three times in another place where they took me there 
in a 7-seater car. After leaving the building, the drive took about 45 
minutes, passing through an express highway and ending up in a big 
complex with many low-rise houses. All the recording of so-called 
confession was conducted in accordance with the script they gave me 
which I followed. Mr. SHI doubled as the director. The weirdest 
incident happened on one occasion when I was taken to a building. After 
getting off the car in the carpark, there was a staircase. Probably to 
save trouble, they removed my eye mask to let me walk the stairs 
myself. After getting down to the lowest floor and along the passage 
way, a policewoman walked past by, facing me directly. On her shoulder 
was the badge of Ningbo Public Security Bureau. Same as on the previous 
occasion, I got into the same room and took the prisoner seat. While 
preparation was being made for recording, the policewoman came in too, 
having changed into civilian clothing, and sat by the wall. ``Miss 
Fong? ``asked Mr. SHI, who was seated in an interrogator's stand like 
that in court. The policewoman nodded. He opened the document on the 
desk and briefly examined it. Then he said it was fine for Miss Fong to 
remain seated. She nodded. Camera was turned on by the assistant at the 
back and with the two sitting side by side, questions and answers 
progressed in sequence, following prior rehearsal. When recording was 
finished, I asked SHI out of curiosity, ``What was the seated lady 
doing there? '' He removed the recording equipment and answered me at 
the same time, ``She is a witness.'' I could not withhold my surprise. 
She was undoubtedly a policewoman, with no connection to my case 
whatsoever. They found themselves a so-called witness just like that? 
It was utterly unbelievable how reckless they were, not to mention that 
the case had been handled in an unlawful manner all along.
    I could not help worrying because of what happened afterwards. For 
the purpose of making application for bail, a remorse video had been 
made. It was submitted to Beijing along with the letter of remorse. 
While waiting for news about the outcome, one day I heard SHI said that 
the higher authority was not satisfied. What was to be done? I was 
terribly anxious. If no approval forthcoming, I would be in jail for 
the Chinese New Year. Several days later, further news was heard. 
Beijing would send people here. To observe me, it was said. Right away 
I felt that it was ominous. One afternoon, two persons came in. I was 
squatting by the toilet and washing clothes. I hurriedly returned to my 
seat. I waited till they were seated. I was about to sit down when one 
of them suddenly banged the table and said I was not allowed to sit. I 
was startled, and had to remain standing. The other person started to 
talk, ``Do you know who we are? '' I shook my head, still in shock. 
Then the other person banged the table also. ``We belong to the Central 
Task Force from Beijing. The kind of books you publish defame our 
national leaders. People like you are vicious to the extreme, not 
worthy of pardon. We can impose proletariat dictatorship over you for 
ten, twenty years, even till death. No one in Hong Kong knows. We can 
even pinch you to death like a bug.'' I was dumbfounded by such sudden 
abusive outbursts and did not know what to do. I could only stare 
blankly, incapable of any reaction but to let them continue their 
rounds of relentless cursing. I had no idea how long the outbursts 
lasted. I kept standing there. Not until two guards entered later did I 
realize that they had left. Very clearly, release on bail was out of 
the question.
    Let's make another videos; write another letter of remorse, said 
SHI later. So the video was re-made, and a letter of remorse written 
again for submission. By then the Chinese New Year was drawing near. 
SHI knew I was so worried that I suffered from insomnia. Maybe he 
wanted to help. He showed friendly gesture. I am not sure if it was due 
to similarity in our sentiments or interests, or whether there was some 
other reason. I understood that he was following orders to interrogate 
me. He was a little sympathetic towards me, hoping that I could get 
released on bail. Later, he even said to me that he would be ready to 
write a letter of plead and be my guarantor, as long as I cooperate in 
the future. At that time I had no choice but to believe him.
    Strangely, SHI came several days later to say that approval from 
the higher authority had come; our fates were tied together; that he 
would be ruined by me if I jumped bail. I felt relieved and my heart 
was at ease. I certainly felt grateful for Mr SHI's assistance from the 
bottom of my heart and promised that I would definitely cooperate with 
him in the future. However, as I recall the matter now, things looked 
somewhat suspicious. Based on my observation of Mr SHI, I still believe 
in him. He was only used as a pawn in a situation that bundled him and 
me together. That had been deliberately arranged by others, it seems.
    I am not groundless in saying the above. Why did Beijing suddenly 
send people to berate me like mad? While release bail seemed very 
remote, somebody knew that Mr SHI would righteously give a hand. That 
somebody could well be his boss. He understood Mr SHI. And Mr SHI was 
both a police officer and an educated person. Educated people have 
their own mentality and at the same time sympathy for others. They tend 
to be more sympathetic than ordinary folks. If Mr SHI and I were 
somehow bundled together on the same boat, the risk of me jumping bail 
would be reduced, because I could not flee on my own and forsake 
someone who had helped me. The situation was even more obvious if my 
case was compared with the three others who had been taken to the 
mainland. They all had relatives in the mainland whereas I only had a 
girlfriend there. That was how I viewed Mr SHI then. Apart from that, 
facts which I observed later on indicate that the whole affair involved 
some scheme even more horrid.
    One afternoon SHI came over and said that a half-length photo was 
to be taken. The person who came along was not the assistant but the 
person surnamed LEE whom I previously knew in Shenzhen. When I got up, 
he held the camera with one hand and pushed me towards the wall with 
the other. He told me to keep a good standing posture, and held up the 
camera to take photos. Every time a photo was taken, the camera 
flashed. I blinked my eyes at the flare, and he examined the image. It 
did not seem to work because every time a photo was taken, I blinked 
and my eyes were closed in all the photos. Seeing that LEE could not 
manage, Mr SHI took over the camera, made some adjustment and turned 
off the flash. He took several photos consecutively, examined them and 
nodded to indicate the job was done. I returned to my seat. Mr SHI went 
to the door, looked back over his shoulder and told me I could leave in 
a few days but would have to stay for a while in Shaoguan first. As I 
saw him disappear, I realized that he too also belonged to the Central 
Task Force.
    I could not leave China when I was I on bail. After the Chinese New 
Year i.e. in end-March 2016, they placed me in Shaoguan. I worked in a 
library for free until June. Then arrangement was made for me to return 
to Hong Kong to report to the police to cancel my case. I would visit 
my family and bring back the computer hard disk storing records of 
subscribers. I asked them why was the hard disk required when they 
already had all the software information. SHI said it was because the 
books were posted by me and the data had been input by me. Therefore I 
would have to bring it back to serve as evidence in court, to make 
prosecution against those subscribers more forceful. Such a request by 
SHI obviously meant that they wanted me to betray other people. At that 
time I had no choice but to agree involuntarily. On 14 June 2016, I 
took express rail to Shenzhen under the surveillance of accompanying 
people. Besides SHI, the other one was Supervisor CHAN. They asked me 
to cross the border first because they didn't want to be seen crossing 
border with me, lest exposing themselves in conducting cross-border 
surveillance. Later on, when I made statement at the police station in 
Wanchai and viewed the recorded video, I could see that I crossed the 
Lowu Bridge at 11:25 whereas they could be seen at 11:55. At 12:15:30, 
they appeared at the exit of immigration.
    After careful thought, I met the press on 16 June 2016 accompanied 
by Mr. Albert HO Chun-yan of the Democratic Party of Hong Kong. The 
event was made public. All to be said has been said, but I have one 
thing to add. In the middle of November 2015, the Central Task Force 
asked a local gangster surnamed CHAN, to acquire ownership of Causeway 
Bay Books from Lee Bo, pre-paid the rental for two years with over HK$ 
1 million, with the intention that I would resume work there. (Mr. SHI 
said to me in Shaoguan that arrangement would be made for me to return 
to the book shop and that I would have to remain in touch with him.) 
Hong Kong people or people from the mainland of China making purchases 
in the book shop would be monitored. In other words, the book shop 
would be a point of surveillance. Undoubtedly, the whole affair shows 
that the Chinese government tries to restrain the freedom of speech and 
freedom of publication in Hong Kong. Such illegal activity has been 
carried out with elaborate planning and careful arrangement throughout.

    LAM Wing Kee
    Manager of Causeway Bay Books (ex-owner of the book shop)
    10 April 2017
                                 ______
                                 

                    Prepared Statement of Ellen Bork

                              may 3, 2017
    Mr. Chairman and members of the Commission, it is an honor to 
appear before you alongside leaders of Hong Kong's democracy movement. 
Thank you for including me in today's hearing.
    As we approach the 20th anniversary of Hong Kong's return to 
mainland Chinese rule, a great deal has changed.
    Beijing has dropped the pretense of respect for Hong Kong's 
autonomy and the ``one country, two systems'' arrangement. The Party is 
not only preventing Hong Kong from moving forward toward full 
democracy, it is also advancing communist political culture and taboos 
within Hong Kong's society. Even words like ``referendum'' and ``self-
determination'' are being treated as taboo.
    Hong Kong's democracy movement has responded in ways that few 
expected. Beijing's refusal to allow democratic election of the chief 
executive sparked the Umbrella movement protests of 2014. The 
movement's young leaders have eclipsed the established leadership that 
started the movement in the 1980s. The old guard is thrilled. They have 
happily given way to the new generation, many of whom were infants, or 
not yet born when the movement accelerated after the 1989 Tiananmen 
crackdown.
    Unlike their parents and grandparents, young Hong Kong democrats 
don't have firsthand experience of living under mainland communist 
rule. They see no reason for their futures to be constrained by 
arrangements reached by Great Britain and China without input or assent 
of the Hong Kong people--particularly now that the UK seeks to be 
Beijing's ``best partner in the West.'' They raise an issue that has 
been largely overlooked by the U.S. and the world's other democracies: 
even the inadequate guarantees of the Joint Declaration will expire in 
2047.
    Hong Kong people's identity has changed--or been revealed--under 
communist rule. Fewer identify as Chinese or as citizens of the PRC. 
Their outlook is shaped by their experience living in Hong Kong's free 
society, as well as their expectation that they would be allowed 
preserve it, and establish full democracy.
    U.S. policy has not changed in response to these developments. 
Adopted in 1992, before the handover, the U.S.-Hong Kong Policy Act was 
a product of optimism about Hong Kong's future and a belief that 
Beijing would tolerate ``two systems'' within its borders. The approach 
to Hong Kong was part and parcel of the ``engagement'' approach toward 
China. At the time, the US was enjoying victory in the Cold War with 
the Soviet Union. American policymakers were taken by Francis 
Fukuyama's famous essay, The End of History. The triumph of democracy 
over communism, fascism, marked `` the end point of mankind's 
ideological evolution and the universalization of Western liberal 
democracy as the final form of human government.'' Confrontation could 
be avoided. Trade and investment, and integration into the world system 
would change China.
    It wasn't a big jump from that idea to a belief that that China's 
Communist Party would accept Hong Kong's rule of law, capitalism, and 
civil liberties. The hope was expressed that Hong Kong would change 
China, not the other way around. At the very least, people argued, 
Beijing would want to keep Hong Kong as it was for economic reasons. 
The Party would not, the argument went, want to ``kill the goose that 
laid the golden egg.''
    If Beijing did interfere in Hong Kong, lawmakers contemplated that 
the president could downgrade Hong Kong's separate status in some areas 
of U.S. law. However, the executive has been understandably reluctant 
to take that step. Denying Hong Kong separate treatment would penalize 
the people of Hong Kong, not Beijing's Party leaders or even their 
proxies in Hong Kong. The act's approach toward Hong Kong has lasted 
well after conditions for which it was adopted changed.
    New legislation proposed by members of the commission, the Hong 
Kong Human Rights and Democracy Act, would take an important step by 
shifting the consequences for the most egregious violations of Hong 
Kong's autonomy from the people of Hong Kong to those who are actually 
responsible.
    Members should consider broadening this provision. China's seizures 
of the booksellers are not isolated incidents. Beijing has also reached 
across borders to pursue Tibetans in Nepal and Uighurs in Central and 
Southeast Asia. It has coerced Thailand to repatriate Chinese 
dissidents. When the United Kingdom's Foreign Secretary sought to 
intercede on behalf of Lee Bo, a British citizen and one of the Hong 
Kong booksellers, the Chinese foreign minister rebuffed him, saying Lee 
is ``first and foremost a Chinese citizen.'' This is an alarming 
distortion of norms of sovereignty and citizenship, but one that so far 
seems to have elicited little response from the countries involved or 
from Washington. Although Great Britain declared a ``serious breach'' 
of the Joint Declaration in connection with the booksellers, it's not 
clear what that means since London has gone on to conduct business as 
usual with China.
    For a long time, the U.S. has treated Hong Kong as a discrete 
issue. We hoped that Party leaders would tolerate freedoms there that 
they would not allow in the mainland. On America's behalf, Secretary of 
State Albright insisted that there would be U.S.-China relations would 
suffer if Beijing didn't live up to its promises under the Joint 
Declaration. However, we effectively, and probably deliberately 
sidelined ourselves by taking the position that the U.S. could not 
express an opinion on violations of a treaty to which it was not a 
party.
    It is clear now, even more than it was in 1997, that America has 
the leading role in support for Hong Kong's democracy, rule of law and 
civil liberties. Hong Kong's fate will be determined not by arguments 
over a treaty signed by a disinterested, fading colonial power, but by 
the confidence and commitment to democratic norms and institutions by 
the U.S. and its allies.
    From support for the Helsinki movement in the Soviet bloc, to the 
defense of Taiwan, to the battles over MFN for China, Congress has long 
played an indispensible role in making democracy and human rights a 
priority in America's foreign policy. Considering the Trump 
administration's affinity for autocrats, Congress's responsibility to 
maintain principled support for democracy around the world is even 
greater now and in the years ahead.
                                 ______
                                 

 Prepared Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
         Chairman, Congressional-Executive Commission on China

                              may 3, 2017
    Good morning. This is a hearing of the Congressional-Executive 
Commission on China. The title of this hearing is ``Will the Hong Kong 
Model Survive?: An Assessment 20 Years After the Handover.''
    We will have two panels testifying today. The first panel will 
feature the Right Honourable Lord Patten of Barnes--Christopher 
Patten--testifying via video link from London. Lord Patten, in addition 
to serving in the House of Lords was the last British Governor of Hong 
Kong, and oversaw the transfer to China twenty years ago this July.
    The second panel will include:

        <bullet> Joshua Wong, ``Umbrella Movement'' Leader and 
        Secretary-General of the new Hong Kong political party, 
        Demosisto;
        <bullet> Martin Lee, Barrister, founding Chairman of the 
        Democratic Party of Hong Kong, former Member of the Drafting 
        Committee for the Basic Law, and former Member of the 
        Legislative Council of Hong Kong (1985-2008);
        <bullet> Lam Wing Kee, Founder, Causeway Bay Books, one of five 
        forcibly disappeared Hong Kong booksellers; and
        <bullet> Ellen Bork, a writer whose work on democracy and human 
        rights as a priority in American foreign policy has appeared in 
        the Wall Street Journal, the Washington Post and the Financial 
        Times among other publications.
        <bullet> I would also note that translating for Mr. Lam is Ms. 
        Mak Yin Ting, a journalist and veteran leader of the Hong Kong 
        Journalists Association, the territory's leading defender of 
        press freedom.

    Thank you all for being here. As has already been noted, today's 
hearing is timely given the 20th anniversary, this July, of the British 
handover of Hong Kong. Rewatching film footage and commentary of that 
historic day, we can't help but take note of the pageantry: the raising 
and lowering of flags, solemn handshakes and national anthems.
    Many observers described the handover as signifying the sunset of a 
once great colonial power and the ascent of a rising China. But there 
was and remains far more at stake.
    On that day in 1997 Lord Patten--who we'll hear from momentarily--
spoke of Hong Kong's ``unshakable destiny''--a Hong Kong governed by 
and for the people of Hong Kong. And it is that destiny that animates 
today's gathering.
    However, in recent years, Beijing has consistently undermined the 
`one country, two systems' principle and infringed on the democratic 
freedoms that the residents of Hong Kong are supposed to be guaranteed 
under the Sino-British Joint Declaration--an international treaty--and 
Hong Kong's Basic Law.
    The rise of ``localist'' politicians and activists who call for 
greater political and legal self-determination for Hong Kong has drawn 
harsh reprisals from the Chinese and Hong Kong governments.
    The Chinese government's November 2016 interpretation of Hong 
Kong's Basic Law effectively prohibited two recently elected Hong Kong 
legislators from taking office and was viewed as a blow to Hong Kong's 
judicial independence. The Hong Kong government is currently seeking 
the removal from office of four other pro-democratic legislators along 
the same lines.
    In March of this year, nine activists were arrested for their 
participation in the Occupy Central protests in 2014, including two 
sitting pro-democratic lawmakers.
    Their arrests came less than 24 hours after the undemocratic 
``election'' of Carrie Lam to serve as Hong Kong's next Chief 
Executive, drawing widespread condemnation and accusations of a 
retaliatory campaign aimed at punishing leaders of the Hong Kong 
democracy movement and suppressing dissent prior to her taking office.
    In late 2015, five Hong Kong-based booksellers, including one of 
today's witnesses, were disappeared or abducted to mainland China. One 
of these booksellers, Gui Minhai, a Swedish citizen abducted from 
Thailand, remains in custody in China, where he will mark his 53rd 
birthday this Friday.
    The disappearances and abductions of the booksellers, and their 
coerced ``confessions'' which were broadcast on Hong Kong television, 
sent shockwaves through the city and are reflective of a larger 
troubling trend in the area of press freedom and freedom of expression.
    Today is World Press Freedom Day and it bears mentioning that the 
recently released Reporters Without Borders index ranking countries for 
their press freedom environment had Hong Kong slipping 4 places in a 
single year.
    In February, Senators Cardin and Cotton joined me in introducing 
the bipartisan Hong Kong Human Rights and Democracy Act, which would 
renew the United States' historical commitment to Hong Kong at a time 
when its autonomy is increasingly under assault.
    The legislation also establishes punitive measures against 
government officials in Hong Kong or mainland China who are responsible 
for suppressing basic freedoms in Hong Kong.
    Looking ahead, Congress will be closely watching how Hong Kong 
authorities and the mainland handle the 20th anniversary as well as 
whether Ms. Lam moves to reintroduce Article 23, widely despised anti-
subversion and anti-sedition legislation first proposed in 2002, which 
triggered massive protests in which half a million Hong Kongers took to 
the streets.
    I look forward to today's hearing. Without question, there are many 
layers and complexities to our relationship with China as evidenced by 
the questions during yesterday's hearing for Governor Branstad to serve 
as U.S. ambassador to China.
    Despite the multitude of challenges, Hong Kong's future, indeed its 
destiny, must not be sidelined. China's assault on democratic 
institutions and human rights is of central importance to the people of 
Hong Kong and to its status as a free market, economic powerhouse and 
hub for international trade and investment.
    We cannot allow Hong Kong to go the way of Beijing's failed 
authoritarianism and one-party rule.
                                 ______
                                 

Prepared Statement of Hon. Christopher H. Smith, a U.S. Representative 
  From New Jersey; Cochairman, Congressional-Executive Commission on 
                                 China

                              may 3, 2017
    Two and half years ago, tens of thousands of Hong Kong's residents 
peacefully gathered in the streets, yellow umbrellas in hand, seeking 
electoral reform and greater democracy. Joshua Wong was at the 
forefront of that movement--along with Nathan Law and Alex Chow and so 
many young student leaders. The Umbrella Movement was not only composed 
of students, but included veterans of the democracy movement in Hong 
Kong, including Martin Lee.
    It is good to see Joshua and Martin here today, bringing together 
the generations of advocates committed to Hong Kong's freedom and 
autonomy.
    Joshua Wong and all those associated with the Umbrella Movement 
have become important symbols of Hong Kong's vitality and its freedoms. 
They are now part of Hong Kong's unique brand and any effort to detain, 
censor, or intimidate them damages that brand.
    Over the past two years, Senator Rubio and I, along with other 
members of the China Commission, have introduced the Hong Kong Human 
Rights and Democracy Act and we have worked in Congress to maintain the 
State Department's annual report on Hong Kong.
    We have issued statements of concern about the political 
prosecutions of Joshua and other Umbrella Movement leaders; the 
unprecedented interventions by the Chinese government in Hong Kong's 
courts and political affairs, and the abductions Hong Kong booksellers 
and other citizens.
    We have also discussed the erosion of Hong Kong's autonomy and 
freedoms with both U.S. and Chinese officials.
    I want to commend Senator Rubio for his leadership on human rights 
issues and on Hong Kong. We have worked together closely and I am 
honored to work with him on the China Commission. Senator Rubio is a 
true champion of the globe's oppressed and persecuted.
    As long as I have the privilege of serving as a Chair of the China 
Commission, I promise to continue shining a light on Hong Kong. 
Maintaining Hong Kong's autonomy is a critical U.S. interest.
    The U.S. also has a clear interest in Beijing abiding by its 
international agreements--in Hong Kong and elsewhere.
    The democratic aspirations of the people of Hong Kong cannot be 
indefinitely suppressed. I promise to stand with Hong Kong and call 
attention to violations of basic human rights as long as I serve in 
Congress.
    Though Beijing's increasingly rough oversight of Hong Kong may not 
be as brutal as that pursued on the Mainland, it is no less pernicious. 
The ultimate goal is eroding Hong Kong's guaranteed freedoms and the 
rule law and intimidating those who try to defend them.
    This year will be the 20th anniversary of the handover of Hong 
Kong. Unfortunately it seems the territory's autonomy looks 
increasingly fragile.
    We are coming up on another anniversary as well, the 25th 
anniversary of the Hong Kong Policy Act.
    At this juncture we should be examining both the health of the 
``one country, two systems'' model and examining the very assumptions 
that underlie U.S.-Hong Kong relations. What can be done differently, 
what new priorities should be set?
    The Hong Kong Policy Act of 1992 was based on the assumption that 
freedom, the rule of law, and autonomy promised to Hong Kong would be 
protected and respected.
    It was also based on the assumption that time was on the side of 
freedom--that trade and investment would eventually bring political 
liberalization and human rights to Mainland China.
    As Chairman Rubio and I have been saying for some time, one can no 
longer base U.S. policy on the ``fantasy'' that China's future will be 
more democratic and more open.
    Mainland China has become more repressive, not less. Prosperity has 
turned a poor authoritarian country into a rich authoritarian country 
with predictable results for China's rights defenders, ethnic and 
religious groups, labor and democracy advocates, foreign businesses and 
Hong Kong's autonomy.
    Some will argue that the best course of action would be to retreat 
into a hard realism, recognize China's interests and spheres of 
influence and protect U.S. interests. We could ignore what is happening 
in Hong Kong and shift responsibility to the British or some undefined 
international body.
    I disagree.
    We don't need a new realism to govern our China policy. Instead, we 
need a new idealism--a renewed commitment to democratic ideals, to 
human rights, and the rule of law in ways that compete directly with 
the Chinese model in Asia and Africa and elsewhere.
    Chinese leaders need to know that the United States stands for 
freedom of expression, the freedom of religion, Internet freedom, the 
rule of law, universal suffrage, and an end to torture as critical 
interests, necessary for bilateral relations, and linked to the 
expansion of mutual prosperity and integrated security.
    The U.S. should also push back hard against the erosion of freedom 
and autonomy in Hong Kong.
    It is in everyone's interest that Hong Kong remain a free and 
prosperous bridge between China and the West, but the city's unique 
vitality and prosperity are rooted in its guaranteed freedoms. If Hong 
Kong is to become just another Mainland Chinese city, we will have to 
reassess whether Hong Kong warrants special status under U.S. law.
    The arc of history does not bend toward justice without concerted 
action from all freedom-loving peoples. If the U.S. and the 
international community does not defend the rights and freedoms of Hong 
Kong's citizens now, there is little hope that freedom can take root in 
China's future.

                       Submission for the Record

                              ----------                              


  Will the Hong Kong Model Survive? An Assessment 20 Years After the 
                                Handover

                              may 3, 2017

                          Witness Biographies

    The Rt. Hon. the Lord Patten of Barnes CH, 28th Governor of Hong 
Kong, 1992-1997

    Lord Patten of Barnes (Christopher) was a Conservative Member of 
Parliament from 1979 to 1992, was a Minister in the Governments of both 
Margaret Thatcher and John Major, and was Chairman of the Conservative 
Party from 1990 to 1992. From 1992 to 1997 he was the last British 
Governor of Hong Kong. In 1998 and 1999 he chaired the independent 
Commission on Policing in Northern Ireland and from 1999 to 2004 was 
the European Commissioner for External Affairs. He helped to organize 
Pope Benedict's visit to the United Kingdom in 2010 and became Chairman 
of the Vatican Media Advisory Committee for Pope Francis in 2014. From 
2011 to 2014 he was Chairman of the BBC Trust. He was elected 
Chancellor of Oxford University in 2003--a post he still holds. He is 
the author of several books including ``East and West'' on his 
experiences as Governor of Hong Kong; ``Not Quite the Diplomat'' on his 
experience as a European Commissioner; and ``What Next--Surviving the 
21st Century''--a book on international politics.

    Martin Lee, Barrister, founding Chairman of the Democratic Party of 
Hong Kong, former Member of the Drafting Committee for the Basic Law, 
and former Member of the Legislative Council of Hong Kong (1985-2008)

    Martin C.M. Lee is a veteran political leader and rule of law 
advocate in Hong Kong. He is the founding chairman of the territory's 
first political party, the Democratic Party (1994-2002), one of the 
largest and most popular political parties in Hong Kong. Mr. Lee is a 
Senior Counsel (formerly Queen's Counsel). He has been chair of Hong 
Kong's Bar Association, and was an elected member of the Legislative 
Council from 1985 to 2008. Mr. Lee has been a champion of democracy in 
Hong Kong for four decades, insisting that the territory's freedoms, 
human rights, and the rule of law must be underpinned by democratic 
institutions if the territory is to continue to prosper as part of 
China. He has not been allowed to visit Mainland China since the 
Tiananmen Massacre on 4 June 1989. The European People's Party and 
European Democrats in the European Parliament named Mr. Lee the first 
non-European recipient of the Schuman Medal in 2000. In 1997, the 
National Endowment for Democracy presented Mr. Lee its annual Democracy 
leadership Award. In 1996, Liberal International awarded Mr. Lee the 
Prize for Freedom.

    Joshua Wong, ``Umbrella Movement'' Leader and Secretary-General, 
Demosisto

    Joshua Wong is the secretary-general of Demosisto, a new political 
party he co-founded in Hong Kong. He came to world attention as the 14-
year old convener of the student group Scholarism, a student-led 
movement opposing the Chinese government's efforts to interfere in 
school curriculums through the government's planned ``patriotic 
education'' policy. Against long odds, Scholarism succeeded in getting 
the government to withdraw its pernicious plan, a story shown in the 
new award-winning documentary film, ``Joshua: Teenager vs Superpower.'' 
Joshua Wong joined other youth and civic leaders in Hong Kong as a core 
student organizer of the 2014 Umbrella Movement, pressing the 
government to honor longstanding promises of democratic elections. 
Joshua Wong was nominated for TIME's 2014 Person of the Year, named one 
of the 25 Most Influential Teens by TIME, one of the World's 50 
Greatest Leaders by Fortune, and one of the 100 Leading Global Thinkers 
by Foreign Policy.

    Lam Wing Kee, Founder, Causeway Bay Books, one of five forcibly 
disappeared Hong Kong booksellers

    Lam Wing Kee is one of five booksellers who were forcibly 
disappeared in 2015 and later paraded on Chinese television. Mr. Lam 
founded Causeway Bay Books in 1994 and sold it to Mighty Current 
publishing house in 2014. On October 24, 2015, he entered China and was 
detained. After almost eight months, on June 14, 2016, he was released 
back to Hong Kong with instructions to contact Hong Kong police to drop 
his missing person case, retrieve evidence for Chinese authorities, and 
return to China to be under residential surveillance. Instead, on June 
16, he decided to go public about his ordeal.

    Ellen Bork, writer

    Ellen Bork writes frequently about democracy and human rights as a 
priority in American foreign policy. She worked for the U.S. Department 
of State in the mid-1980s. In the late 1990s, she served on Capitol 
Hill as a legislative assistant to Senator Connie Mack and as the 
senior professional staff member for East Asia and the Pacific on the 
Senate Foreign Relations Committee under Chairman Jesse Helms. She has 
worked most recently at the Foreign Policy Initiative and at Freedom 
House. She is writing a book about America's strategic interest in 
Tibet. She contributed the article ``The Rise of Taiwan,'' about 
Taiwan's democratic civic identity and the challenge it poses to the 
``one China'' policy, to ``The Rise of China'' (Gary Schmitt editor, 
Encounter Books, 2009). Her articles have been published the Wall 
Street Journal, the Washington Post, the Financial Times, World Affairs 
Journal, and other publications. Her article ``Let One Hundred Flowers 
Be Crushed,'' about visiting dissidents in China, appeared in the 
Weekly Standard (December 31, 2007). She has testified before the 
Senate Foreign Relations Committee and the Congressional-Executive 
Commission on China. Ms. Bork graduated from Yale University and 
Georgetown University Law Center.

                                 <all>
</pre></body></html>
